<html>
<title> - U.S. POLICY TOWARD NORTH KOREA</title>
<body><pre>[Senate Hearing 113-36]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-36

 
                     U.S. POLICY TOWARD NORTH KOREA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
81-468                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
      Daniel E. O'Brien, Acting Democratic Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Bosworth, Hon. Stephen W., dean, the Fletcher School of Law and 
  Diplomacy, Tufts University, Medford, MA.......................    33
Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
Davies, Hon. Glyn T., Special Representative for North Korea 
  Policy, U.S. Department of State, Washington, DC...............     5
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Jeff Flake.................................................    50
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    51
DeTrani, Hon. Joseph, president, Intelligence and National 
  Security Alliance, Arlington, VA...............................    34
    Prepared statement...........................................    36
Joseph, Hon. Robert G., senior scholar, National Institute for 
  Public Policy, Washington, DC..................................    38
    Prepared statement...........................................    40
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1

                                 (iii)

  


                     U.S. POLICY TOWARD NORTH KOREA

                              ----------                              


                        THURSDAY, MARCH 7, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Udall, Murphy, 
Kaine, Corker, Rubio, Johnson, Flake, McCain, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This meeting of the Senate 
Foreign Relations Committee will come to order.
    This being the first hearing of this new term, it could not 
be a more timely hearing. Recent developments in North Korea, 
most notably, the February 12, 2013, nuclear test and the 
December 12, 2012, missile tests, highlight the growing threat 
that North Korea poses to the United States, our allies and 
friends in the region, and the increasing dangers of severe 
instability on the Korean Peninsula. Given this growing set of 
circumstances, I believe the committee needs to take a close 
look at current United States policy toward North Korea, 
evaluate its effectiveness, and identify any midcourse 
corrections or new measures that are required to get our North 
Korea policy right.
    I understand that as we convene this hearing, this morning, 
that in New York the United Nations Security Council is sitting 
down to consider a resolution that imposes additional sanctions 
on North Korea. This new Security Council resolution, based on 
a United States-China draft, includes tough new sanctions 
intended to impede North Korea's ability to develop further its 
illicit nuclear and ballistic missile programs. These sanctions 
include targeting the 
illicit activities of North Korean diplomatic personnel, North 
Korean banking relationships, illicit transfers of bulk cash, 
and new travel restrictions.
    I think that these actions are a step in the right 
direction and very much in keeping with the sort of approach 
that the ranking member, Senator Corker, and I called for in 
the North Korea Nonproliferation and Accountability Act of 
2013, which the Senate passed on February 25.
    And I congratulate the administration on moving things 
forward so effectively at the United Nations.
    But I also believe that we need to do more to better 
determine how the United States can combine effective sanctions 
and military countermeasures with strong and realistic 
diplomacy aimed at North Korea and at China--and with the clear 
goal of North Korea's abandonment of its nuclear programs.
    North Korea yesterday made what I consider to be, of 
course, an absurd threat of a ``preemptive nuclear attack'' to 
destroy the strongholds of the ``aggressors'' in response to 
the action that the United States, China, and others are 
seeking at the United Nations.
    There should be no doubt about our determination, 
willingness, and capability to neutralize and counter any 
threat that North Korea may present. I do not think that the 
regime in Pyongyang wants to commit suicide but, as they must 
surely know, that would be the result of any attack on the 
United States.
    But even as we think about potential measures and actions 
necessary to safeguard the United States and our allies, there 
should also be no doubt about our determination to work with 
the international community through peaceful diplomatic means 
to achieve a denuclearized Korean Peninsula.
    Today it is estimated that North Korea has accumulated 
between 20 and 40 kilograms of plutonium, enough perhaps for 
six to eight nuclear weapons. It has now conducted three 
nuclear explosive tests. It has developed a modern gas 
centrifuge uranium enrichment program to go along with its 
plutonium stockpile, and it is seeking to develop the 
capability to mate a nuclear warhead to an intercontinental 
ballistic missile.
    Taken together, these developments present a growing danger 
that North Korea may well become a small nuclear power, a 
scenario which, while bad enough on its own, could well have 
additional dangerous effects if it leads other nations in the 
region to reconsider their own commitments to nonproliferation.
    Moreover, there is also the continuing danger of further 
conventional military provocation from North Korea that results 
in a serious military clash between North and South and the 
potential for unintended escalation that could draw in the 
United States and China and result in a dangerous confrontation 
on the peninsula.
    And beyond these security concerns, there are also the 
ongoing questions about human rights and the lot of the North 
Korean people. Security concerns may be our most important 
priority on the peninsula, but they are not our only priority.
    It has now been a little over a year since Kim Jong-un took 
power amid speculation that this transition could lead to a 
period of instability inside the North, perhaps even leading to 
collapse. Yet, that instability does not appear to have 
materialized. Although, of course, we can never be sure about 
what the future is in North Korea, by all appearances Kim has 
asserted control over the military and strengthened party 
institutions, and contrary to some media hype focus on his 
education in Switzerland, he has not proved to be a reformer. 
It is unclear whether he has any objectives other than 
maintaining tight control of his political and economic system.
    Above all else, North Korea clearly represents a real and 
growing threat to national security interests and therefore 
deserves our close attention. In time, if its present course 
remains unaltered, North Korea could pose a direct threat to 
the United States.
    Today North Korea certainly poses a growing threat to our 
allies and to American forces in the region. It also threatens 
to undermine the international nonproliferation regime, 
particularly as its arsenal grows, by spreading its threat to 
other countries through a transfer of nuclear technology and 
materials. We know, for example, that North Korea has made 
efforts to proliferate nuclear technology in the past, building 
a plutonium separation plant in Syria which Israel destroyed by 
bombing it before its completion, and we know that there is a 
long history of North Korean-Iranian military cooperation.
    I hope that this hearing, as well as a continuing dialogue 
with the administration on this issue, will help us explore 
several key questions that are critical to informing our future 
policy toward North Korea. Does North Korea pursue a nuclear 
weapons program as a deterrent for defensive purposes, or does 
it pursue such a program as part of a policy intended to 
reunify the peninsula by force? Could the current regime ever 
conceive of parting with its nuclear capability, or does it 
view these weapons as essential tools as deterrence against 
others to continue its hold on power? Getting these answers 
right will be critical to determining if there is hope for 
diplomacy or if a different approach is necessary.
    It is also important to note the coming power of a new 
South Korean administration led by President Park at this 
difficult time. We offer her our congratulations on her 
inauguration last week. There is no basis for successfully 
dealing with the North absent a solid foundation for policy 
rooted in the United States-Republic of Korea alliance. With 
President Park's inauguration, we have an opportunity to 
consult and work closely with a close ally to chart our future 
course in dealing with North Korea.
    And finally, we need to consider how recent transitions in 
other countries in the region, including our close ally, Japan, 
as well as China, may present new opportunities in building a 
more effective approach to dealing with Pyongyang.
    Whatever one's views on the various policy efforts of the 
past two decades, and what has worked and what has not worked 
and why, there can be little question that these efforts have 
failed to end North Korea's nuclear or missile programs, failed 
to reduce the threat posed to our allies, and failed to lead to 
greater security in the region. But I am hopeful that today's 
hearing and the conversation we start today may help us get to 
a place where 20 years from now we can look back at 
successfully having ended North Korea's nuclear and missile 
programs, and having built greater stability and security on 
the peninsula and throughout the Asia-Pacific region.
    Let me call upon the distinguished ranking member, Senator 
Corker, for his comments.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, for this timely 
hearing.
    And welcome, Ambassador Davies. We thank you for being 
here. I look forward to hearing from you today, along with our 
panel of expert witnesses later this morning.
    North Korea's nuclear weapons program, missile program, and 
proliferation activities pose a threat to the United States 
national security interests.
    Over several decades, United States policymakers have 
attempted to influence North Korea's behavior through an array 
of deterrent tools, including inducements and punitive 
measures. U.S. officials have used diplomacy, energy 
assistance, financial sanctions, and counterproliferation 
tools, including proactive interdiction activities. Despite the 
varying combinations of tools, the United States has failed to 
persuade the North Korean regime to abandon its nuclear weapons 
program.
    We know that North Korea continues to engage in a range of 
illicit and proliferation-related activities to generate hard 
currency to support the regime. Simultaneously, the situation 
for the North Korean people has continued to deteriorate with 
rampant human rights abuses, the continued expansion of North 
Korean prison camps, and some analysts estimate they may hold 
as many as 200,000 political prisoners.
    In addition, China continues to serve as North Korea's 
primary benefactor, accounting for nearly 60 percent of all 
North Korean trade. Beijing remains Pyongyang's main source of 
food and fuel. United States policymakers have not been able to 
persuade China that the costs of Beijing's continued support 
for North Korea far outweigh the perceived benefits. It is 
clear that we must redouble our efforts in that regard.
    I recognize that North Korea is a complex policy conundrum 
and that there is no silver bullet solution. Yet, after nearly 
20 years of unsuccessful policies by successive 
administrations, it seems logical to me that we ought to 
undertake a comprehensive review of our North Korean strategy, 
including harnessing new tools to try to crack the North Korean 
policy nut.
    That is why I worked with Senator Menendez and other 
members of this committee to move forward with the North Korean 
Nonproliferation and Accountability Act, S. 298, which would 
require the administration to review our approach to North 
Korea. Undertaking such a review does not require abandoning 
diplomatic efforts nor terminating sanctions. However, it 
necessitates that we redouble efforts to think outside the box.
    In recent months, it has become increasingly clear to me 
that U.S. policymakers ought to pay closer attention to the 
nonmilitary aspects of deterrence, including efforts to weaken 
and debilitate the North Korean regime. In particular, we ought 
to do more to expose the North's brutality toward its own 
citizens as a means to influence the Kim regime.
    We also should promote the flow of information to the North 
Korean people, including through our own Radio Free Asia 
broadcasts.
    However, do not mistake my interests in the nonmilitary 
aspects of deterrence as a call to abandon the military and 
security aspects of our overall North Korea policy. I firmly 
believe that a robust United States nuclear deterrent is 
essential to United States security and it remains critical to 
maintaining our security commitments to allies in the Asia-
Pacific, including Japan and South Korea. I know that 
Ambassador Joseph will speak to the importance of our nuclear 
deterrent later during this hearing.
    Ambassador Davies, I do look forward to hearing from you 
regarding the administration's strategy for confronting North 
Korea, including our efforts this week at the Security Council 
on a new sanctions resolution.
    In addition, I look forward to hearing from you and all of 
our expert witnesses about our capabilities to deter North 
Korean provocations, options to elicit enhanced Chinese 
cooperation, and opportunities to improve the lives of the 
North Korean people.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Corker.
    Today's two panels pull together some of the top 
decisionmakers on North Korean policy from the current and 
several previous administrations. They represent decades of 
experience, following North Korea from both in and outside the 
Government, and can bear witness to years of both progress and 
setbacks in our policy. And I can think of no better group to 
help analyze what has worked and what has not, and I fully 
expect they may hold, in some cases, quite different views in 
this regard. That is only natural considering the critical 
importance and extraordinary complexity of addressing North 
Korea, and I would view simple answers with considerable 
skepticism. So we are going to look forward to this discussion.
    We start off with the distinguished Ambassador Glyn Davies. 
He has served as the Special Representative of the Secretary of 
State for North Korea Policy since January 2012. He oversees 
U.S. involvement in the six-party talks process, as well as 
aspects of our security, political, economic, human rights, and 
humanitarian assistance policy regarding North Korea. He is a 
career member of the Senior Foreign Service, served previously 
as the Permanent Representative of the United States to the 
International Atomic Energy Agency and the U.N. office in 
Vienna, as well as the Principal Deputy Assistant Secretary of 
State in the Bureau of East Asian and Pacific Affairs and 
Executive Secretary of the National Security Council staff. So 
an extraordinary wealth of knowledge. We welcome you to the 
committee and look forward to your testimony.

 STATEMENT OF HON. GLYN T. DAVIES, SPECIAL REPRESENTATIVE FOR 
  NORTH KOREA POLICY, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Davies. Well, thank you very much, Chairman 
Menendez and Senator Corker and members of the committee, for 
inviting me to testify today on United States policy toward 
North Korea or, as it is also known, the Democratic People's 
Republic of Korea.
    North Korea's February 12 announcement of its third nuclear 
test and its subsequent threats to conduct even more follow-on 
measures are only the latest in a long line of reminders that 
the DPRK's nuclear weapons and ballistic missile programs and 
proliferation activities pose serious threats to U.S. national 
security, to regional security in the Asia-Pacific, and to the 
global nonproliferation regime.
    Pyongyang continues to violate its international 
obligations and commitments, including to denuclearize. Its 
human rights record remains deplorable. Its economy is 
stagnant. Its people are impoverished. It pours significant 
sums into nuclear and ballistic missile programs that are 
forbidden by the United Nations.
    The DPRK has consistently failed to take advantage of the 
alternatives available. The United States has offered Pyongyang 
an improved relationship, provided North Korea demonstrates a 
willingness to fulfill its denuclearization commitments and 
address other concerns. The DPRK rebuffed these offers and 
instead responded with a series of provocations that drew 
widespread international condemnation.
    North Korea again brazenly defied the international 
community on April 13, 2012, and again on December 12, 2012, 
with long-range missile launches, in flagrant violation of U.N. 
Security Council resolutions and in the face of united calls 
from the international community to desist. Some 60 countries 
and international organizations issued statements criticizing 
the December launch.
    The DPRK's February 12 announcement of a nuclear test, 
which Pyongyang proclaimed was targeted against the United 
States of America, represents an even bolder threat to national 
security, the stability of the regime, and the global 
nonproliferation regime. The international response has been 
unprecedented. Over 80 countries and international 
organizations from all corners of the world have condemned the 
tests.
    We are working with the international community to make 
clear that North Korea's nuclear test has costly consequences. 
In adopting Resolution 2087 in January after the December 
launch, the U.N. Security Council pledged to take significant 
action in the event of a nuclear test. We are working hard at 
the United Nations Security Council to make good on that 
pledge, and as you noted, Mr. Chairman, that is occurring even 
as we speak and we are hoping that the council adopts the 
resolution that the United States put forward. The Security 
Council will deliver a credible and strong response that 
further impedes the growth of North Korea's nuclear weapons and 
ballistic missiles program and its ability to engage in 
proliferation activities.
    The resolution today that we tabled builds upon, 
strengthens, and significantly expands the scope of the strong 
U.N. sanctions already in place. The sanctions contained in 
this draft resolution will significantly impede North Korea's 
ability to proceed in developing its nuclear and missile 
programs and significantly expand the scope of the tools the 
United Nations has available to counter these North Korean 
developments.
    We are also strengthening our close coordination with our 
six-party partners and our regional allies, and through a 
whole-of-government approach, working closely with our partners 
in the Department of Defense and other agencies, we will take 
the steps necessary to defend ourselves and our allies, 
particularly the Republic of Korea and Japan.
    Effective, targeted multilateral and national sanctions 
will remain a vital component of our effort to impede the DPRK 
from advancing its nuclear weapons and ballistic missile 
programs and its proliferation activities. We continue to 
exercise national authorities to sanction North Korean 
entities, individuals, and those that support them in 
facilitating programs that threaten the American people. Most 
recently on January 24, the Departments of State and the 
Treasury designated a number of North Korean individuals and 
entities under Executive Order 13-382, which targets actors 
involved in the proliferation of weapons of mass destruction 
and their supporters. We will continue to take national 
measures as appropriate.
    Sanctions are not a punitive measure, but rather a tool to 
impede the development of North Korea's nuclear and missile 
programs and its proliferation-related exports, as well as to 
make clear the costs of North Korea's defiance of its 
international obligations, and working toward our end game will 
require an openness to meaningful dialogue with the DPRK.
    We remain committed to authentic and credible negotiations 
to implement the September 2005 joint statement of the six-
party talks and to bring North Korea into compliance with its 
international obligations through irreversible steps leading to 
denuclearization.
    The United States will not engage in talks for talks' sake. 
Authentic and credible talks will first require a serious, 
meaningful change in North Korea's priorities, demanding that 
Pyongyang is prepared to meet its commitments and obligations 
on denuclearization.
    This leads to a few important other principles. First and 
foremost, the United States will not accept North Korea as a 
nuclear-armed state. We will not reward the DPRK for the 
absence of bad behavior. We will not compensate the DPRK merely 
for returning to dialogue. We will not tolerate North Korea 
provoking its neighbors. We have made clear that U.S.-DPRK 
relations cannot fundamentally improve without sustained 
improvement in inter-Korean relations and in human rights. 
These positions will not change.
    In the meantime, active United States diplomacy on North 
Korea on a wide range of issues continues. Close coordination 
with our valued treaty allies, the ROK and Japan, remain 
absolutely central to our approach.
    We have also expanded our engagement by developing new 
dialogues on North Korea with key global actors who have joined 
the rising chorus of voices calling on the DPRK to comply with 
its international obligations.
    China, however, does remain central to altering North 
Korea's cost calculus and close United States-China 
consultations on North Korea will remain for us a key focus of 
diplomatic efforts in the weeks and months ahead.
    While denuclearization remains an essential goal of United 
States policy, so too does the welfare of North Korea's nearly 
25 million people, the vast majority of whom bear the brunt of 
the government's decision to perpetuate an unsustainable, self-
impoverishing, military-first policy. Improving human rights 
conditions is an integral part of our overall North Korea 
policy, and how the DPRK addresses human rights will have a 
significant impact on prospects for improved U.S.-DPRK ties.
    The entire world is increasingly taking note of the grave, 
widespread, and systematic human rights violations in the DPRK 
and demanding action. The United Nations High Commissioner for 
Human Rights Navi Pillay has called for an in-depth 
international inquiry to document abuses. We support this call, 
and next week, my colleague, Special Envoy for North Korea 
Human Rights Issues Robert King, will travel to Geneva to 
attend the United Nations Human Rights Council's 22nd session 
where he will call attention to North Korea's human rights 
record and urge adoption of an enhanced mechanism of inquiry 
into the regime's abuses against the North Korean people.
    Mr. Chairman, the Obama administration's dual-track policy 
of engagement and pressure toward the DPRK reflects a 
bipartisan recognition that only a policy of openness to 
dialogue when possible, combined with sustained, robust 
pressure through sanctions when necessary, can maximize 
prospects for progress in denuclearizing North Korea.
    But genuine progress requires a fundamental shift in North 
Korea's strategic calculus. The DPRK leadership must choose 
between provocation or peace, isolation or integration. North 
Korea will not achieve security, economic prosperity, and 
integration into the international community while it pursues 
nuclear weapons, while it threatens its neighbors, while it 
tramples on international norms, abuses its own people, and 
refuses to fulfill its longstanding obligations and 
commitments.
    The DPRK leadership in Pyongyang faces increasingly sharp 
choices, and we are working with our friends and allies to 
further sharpen these choices. If the North Korean regime is at 
all wise, it will reembark on a path to denuclearization for 
the benefit of the North Korean people, the Northeast Asian 
region, and the world.
    Mr. Chairman, thank you again for this chance to appear 
before you today, and I am happy to try and address any 
questions you may have. Thank you, sir.
    [The prepared statement of Ambassador Davies follows:]

               Prepared Statement of Hon. Glyn T. Davies

    Chairman Menendez, Senator Corker, and Members of the committee, 
thank you for inviting me to testify today on U.S. policy toward the 
Democratic People's Republic of Korea (DPRK).
    Nearly 60 years have passed since the conclusion of the armistice 
that ended the hostilities of the Korean war, yet North Korea still 
persists as one of the thorniest challenges confronting the United 
States and the international community. Pyongyang's February 12 
announcement of a third nuclear test--conducted in brazen defiance of 
the demands of the United Nations Security Council--and its subsequent 
threats to conduct even more follow-on ``measures'' are only the latest 
in a long line of reminders that the DPRK's nuclear weapons and 
ballistic missile programs and proliferation activities pose serious 
threats to U.S. national security, to regional security in the Asia-
Pacific, and to the global nonproliferation regime.
    Pyongyang continues to violate its international obligations and 
commitments, including to denuclearize. Its human rights record remains 
deplorable. Its economy is stagnant. Its people are impoverished. It 
pours significant sums into nuclear and ballistic missile programs that 
are forbidden by the United Nations. The leadership's choices are 
isolating North Korea from the international community. International 
outrage against North Korea and its provocative and threatening 
actions, meanwhile, continues to grow.
    The DPRK has consistently failed to take advantage of the 
alternatives available. The United States offered--and has continued to 
offer--Pyongyang an improved relationship with the United States and 
integration into the international community, provided North Korea 
demonstrated a willingness to fulfill its denuclearization commitments 
and address other concerns. The DPRK rebuffed these offers and instead 
responded with a series of provocations that drew widespread 
international condemnation.
    Pyongyang appeared prepared to enter a period of serious diplomatic 
engagement in mid-2011, and the United States responded with a 
proactive, nearly year-long diplomatic effort to push forward on 
denuclearization in a way that would lay the groundwork for improved 
bilateral relations. Starting in July 2011 and continuing over the next 
10 months, the United States and the DPRK held three rounds of 
bilateral denuclearization talks on three continents. In our meetings, 
we worked to forge the conditions necessary for resuming the six-party 
talks, which had been stalled since 2008. Shortly after Kim Jong-un's 
assumption of power, we reached a modest but potentially important 
bilateral understanding announced on February 29, 2012.
    Pyongyang announced its commitment to, among other things, a 
moratorium on nuclear tests, long-range missile launches, and all 
nuclear activity, including uranium enrichment activity, at the 
Yongbyon nuclear complex. North Korea also committed to allow 
International Atomic Energy Agency inspectors to return to Yongbyon to 
monitor the cessation of uranium enrichment and confirm the disablement 
of plutonium-related facilities there.
    But just 16 days later, North Korea reneged on these commitments by 
announcing its intent to launch a satellite into orbit. Such launches 
use ballistic missile technology proscribed by multiple U.N. Security 
Council resolutions (UNSCRs), and we had made it abundantly clear 
during our negotiations that such a launch, even if characterized as a 
satellite launch, would be a deal-breaker. Pyongyang nevertheless 
conducted such a launch on April 13 and was greeted by deep 
international opprobrium. All five six-party partners--China, Russia, 
the United States, the Republic of Korea (ROK), and Japan--joined a 
long list of states publicly condemning Pyongyang's provocation. The 
U.N. Security Council unanimously issued a Presidential Statement 
condemning the act as a ``serious violation'' of UNSCRs 1718 and 1874, 
tightened existing sanctions, and made clear its commitment to ``take 
action accordingly'' in the event of another launch.
    North Korea again brazenly defied the international community on 
December 12, 2012, with another long-range missile launch, again 
characterized by the DPRK as a satellite launch, in flagrant violation 
of U.N. Security Council Resolutions 1718 and 1874 and in the face of 
united public and private calls by the international community to 
desist. Over 60 countries and international organizations issued 
statements criticizing the launch. The U.N. Security Council 
unanimously adopted UNSCR 2087, which condemned the launch, further 
expanded the scope of sanctions on the DPRK, and promised ``significant 
action'' in the event of a future DPRK missile launch or nuclear test.
    The DPRK's February 12 announcement of a nuclear test, which 
Pyongyang proclaimed was targeted against the United States, represents 
an even bolder threat to U.S. national security, the stability of the 
region, and the global nonproliferation regime. The international 
response has been unprecedented. Over 80 countries and international 
organizations from all corners of the world have decried the test. Many 
are speaking out against DPRK provocations for the first time. As the 
list continues to grow, it is increasingly clear that an international 
consensus is coalescing in opposition to North Korea's destabilizing 
activities.
    We are working with the international community to make clear that 
North Korea's nuclear test has costly consequences. In adopting 
Resolution 2087 in January after the December launch, the U.N. Security 
Council pledged to take ``significant action'' in the event of a 
nuclear test; we are working hard at the U.N. Security Council to make 
good on that pledge. We are intensively engaged with our six-party 
partners, members of the U.N. Security Council, and other U.N. Member 
States on a strong and credible response by the international 
community.
    China's support for firm action remains key, and we are deeply 
engaged with the Chinese in shaping an appropriate response. We are 
strengthening our close coordination with our six-party partners and 
regional allies. And--through a whole-of-government approach, working 
closely with our partners in the Department of Defense and other 
agencies--we will take the steps necessary to defend ourselves and our 
allies, particularly the ROK and Japan. We have reassured both Seoul 
and Tokyo, at the highest levels, of our commitment to extended 
deterrence through the U.S. nuclear umbrella, conventional 
capabilities, and missile defense.
    North Korea's WMD, ballistic missile, conventional arms, and 
proliferation activities constitute a serious and unacceptable threat 
to U.S. national security, to say nothing of the integrity of the 
global nonproliferation regime, which many around the world have 
labored--over generations--to devise, nurture, and enforce. Effective, 
targeted multilateral and national sanctions will consequently remain a 
vital component of our efforts to impede the DPRK's efforts to advance 
its nuclear weapons and ballistic missile programs and proliferation 
activities. UNSCR 2087 was an important step forward in this regard. 
Combined with the measures in Resolutions 1718 and 1874, UNSCR 2087 
further constricts North Korea's efforts to procure weapons components, 
send agents abroad, smuggle dual-use items, and make headway on its 
nuclear weapons and ballistic missile programs.
    Full and transparent implementation of these resolutions by all 
U.N. Member States, including China, is critical. We are actively 
engaged with the international community to underscore the importance 
of full enforcement of these measures.
    We also continue to exercise national authorities to sanction North 
Korean entities, individuals, and those that support them in 
facilitating programs that threaten the American people. Most recently, 
on January 24, the Departments of State and the Treasury designated a 
number of North Korean individuals and entities under Executive Order 
13382, which targets actors involved in the proliferation of weapons of 
mass destruction and their supporters. The Department of State 
designated the Korean Committee for Space Technology--North Korea's 
space agency--and several officials directly involved in North Korea's 
April 2012 and December 2012 launches, which contributed to the DPRK's 
long-range ballistic missile development efforts. The Department of the 
Treasury designated several Beijing-based North Korean officials linked 
to the DPRK's Tanchon Commercial Bank, which has been designated by the 
U.N. and the United States for its role in facilitating the sales of 
conventional arms, ballistic missiles, and related items. The Treasury 
Department also targeted Leader (Hong Kong) International Trading 
Limited, a Hong Kong-based firm, for its links to the Korea Mining 
Development Trading Corporation, the DPRK's premier arms dealer and 
exporter of missile- and weapon-related goods.
    We will continue to take national measures as appropriate. We are 
also working closely with the U.N. Security Council's DPRK sanctions 
committee and its Panel of Experts, the EU and like-minded partners, 
and others around the globe to harmonize our sanctions programs and to 
ensure the full and transparent implementation of UNSCRs 1718, 1874, 
and 2087, which remain the heart of the multilateral sanctions regime.
    Sanctions are not a punitive measure, but rather a tool to impede 
the development of North Korea's nuclear and missile programs and 
proliferation-related exports, as well as to make clear the costs of 
North Korea's defiance of its international obligations. Working toward 
our endgame--the verifiable denuclearization of the Korean Peninsula in 
a peaceful manner--will require an openness to meaningful dialogue with 
the DPRK. But the real choice is up to Pyongyang.
    We remain committed to authentic and credible negotiations to 
implement the September 2005 Joint Statement of the Six-Party Talks and 
to bring North Korea into compliance with its international obligations 
through irreversible steps leading to denuclearization. The President 
made this clear last November when he said, ``. . . let go of your 
nuclear weapons and choose the path of peace and progress. If you do, 
you will find an extended hand from the United States of America.'' But 
let me state the obvious: North Korea's reckless provocations have 
certainly raised the bar for a return to dialogue.
    The United States will not engage in talks for the sake of talks. 
Rather, what we want are negotiations that address the real issue of 
North Korea's nuclear program. Authentic and credible negotiations 
therefore require a serious, meaningful change in North Korea's 
priorities demonstrating that Pyongyang is prepared to meet its 
commitments and obligations to achieve the core goal of the September 
2005 joint statement: the verifiable denuclearization of the Korean 
Peninsula in a peaceful manner.
    This leads to some other important principles. First and foremost, 
the United States will not accept North Korea as a nuclear-armed state. 
We will not reward the DPRK for the absence of bad behavior. We will 
not compensate the DPRK merely for returning to dialogue. We have also 
made clear that U.S.-DPRK relations cannot fundamentally improve 
without sustained improvement in inter-Korean relations and human 
rights. Nor will we tolerate North Korea provoking its neighbors. These 
positions will not change.
    In the meantime, active U.S. diplomacy on North Korea--on a wide 
range of issues--continues. Close coordination with our valued treaty 
allies, the ROK and Japan, remains central to our approach.
    ROK President Park Geun-hye and President Obama agree on the need 
for continued close U.S.-ROK coordination on a range of security 
issues, including North Korea. We are confident of President Park's 
commitment to the U.S.-ROK alliance and anticipate close consultation 
with her administration on its North Korea strategy. Close consultation 
will also continue with Japan. During his visit to Washington in late 
February, Japanese Prime Minister Shinzo Abe and President Obama agreed 
to continue working together closely in responding to the threat posed 
by North Korea, including through coordination on sanctions measures.
    We have also expanded our engagement by developing new dialogues on 
North Korea with key global actors who have joined the rising chorus of 
regional and 
global voices calling on North Korea to fulfill its commitments, comply 
with its international obligations, and refrain from provocative acts 
that undermine regional security and the global nonproliferation 
regime.
    China, however, remains central to altering North Korea's cost 
calculus. Both geography and history have endowed the People's Republic 
of China with a unique--if increasingly challenging--diplomatic, 
economic, and military relationship with the DPRK. Close U.S.-China 
consultations on North Korea will remain a key locus of our diplomatic 
efforts in the weeks and months ahead as we seek to bring further 
pressure to bear on North Korea and, over the longer term, seek genuine 
diplomatic openings to push forward on denuclearization.
    While denuclearization remains an essential focus of U.S. policy, 
so, too, does the welfare of North Korea's nearly 25 million people, 
the vast majority of whom bear the brunt of their government's decision 
to perpetuate an unsustainable, self-impoverishing military-first 
policy. While the DPRK devotes limited resources to developing nuclear 
weapons and ballistic missiles and devising ways to avoid sanctions, 
one in three North Korean children is chronically malnourished, 
according to a 2009 UNICEF estimate. An elaborate network of political 
prison camps in the country is reportedly estimated to contain 100,000-
200,000 inmates, who are subjected to forced labor, torture, and 
starvation. It has been reported that whole families have been 
condemned--in most cases without trial--when one member commits an 
alleged crime. The courageous and charismatic Shin Dong-hyuk, whose 
life story is chronicled in Blaine Harden's excellent book, ``Escape 
from Camp 14'', was born in one of the most infamous political prison 
camps and spent the first 23 years of his life there. He was not only 
tortured and subjected to forced labor, but was also cruelly made to 
witness--at the age of 14--the execution of his mother and his brother.
    Even outside this prison-camp system, the North Korean Government 
dictates nearly all aspects of people's lives through a highly 
structured social classification system called songbun, which it uses 
to divide North Korea's population into categories. This system, in 
turn, determines access to education and health care, employment 
opportunities, place of residence, and marriage prospects. Improving 
human rights conditions is an integral part of our North Korea policy, 
and how the DPRK addresses human rights will have a significant impact 
on prospects for improved U.S.-DPRK ties.
    The world is increasingly taking note of the grave, widespread, and 
systematic human rights violations in the DPRK and demanding action. 
U.N. High Commissioner for Human Rights Navi Pillay has called for an 
in-depth international inquiry to document abuses. We support this 
call, and next week, my colleague Special Envoy for North Korean Human 
Rights Issues Robert King will travel to Geneva to attend the U.N. 
Human Rights Council's 22nd session, where he will call attention to 
North Korea's human rights record and urge the adoption of an enhanced 
mechanism of inquiry into the regime's abuses against the North Korean 
people.
    We continue, meanwhile, to engage countries across the globe to 
raise awareness about North Korea and enlist their help in pushing for 
action. We are also working with international and nongovernmental 
organizations to improve the situation on the ground for the North 
Korean people, including by supporting the flow of independent 
information into the DPRK. Working with the Broadcasting Board of 
Governors, Voice of America, Radio Free Asia, and independent 
broadcasters in the ROK, we aim to provide information to the North 
Korean people and--over the longer term--plant the seeds for the 
development of civil society.
    The Obama administration's dual-track policy of engagement and 
pressure toward the DPRK reflects a bipartisan recognition that only a 
policy of openness to dialogue when possible, combined with sustained, 
robust pressure through sanctions when necessary, can maximize 
prospects for progress in denuclearizing North Korea.
    Progress on this decades-old problem will not be achieved easily or 
quickly. We cannot and should not dignify or, worse, feed the North 
Korean narrative that U.S. actions determine DPRK behavior. North Korea 
makes its own choices, selects its own timing, and is alone responsible 
for its actions. Similarly, we need to bear in mind that this is 
certainly not now--if it ever truly was--solely or even primarily a 
bilateral U.S.-DPRK issue. It is, rather, increasingly a global issue 
that requires an entrepreneurial approach, multilateral diplomacy and--
yes--continuing, robust American leadership.
    But above all else, genuine progress requires a fundamental shift 
in North Korea's strategic calculus. The DPRK leadership must choose 
between provocation or peace, isolation, or integration. North Korea 
will not achieve security, economic prosperity, and integration into 
the international community while it pursues nuclear weapons, threatens 
its neighbors, tramples on international norms, abuses its own people, 
and refuses to fulfill its longstanding obligations and commitments.
    The international community has been increasingly clear about this, 
and so have we. The DPRK leadership in Pyongyang faces sharp choices. 
And we are working to further sharpen those choices. If the North 
Korean regime is at all wise, it will reembark on the path to 
denuclearization for the benefit of the North Korean people, the 
northeast Asia region, and the world.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions you may have.

    The Chairman. Thank you, Ambassador.
    We will start a round and I will start.
    Let me just take off of that almost closing comment that 
you made, that real progress depends upon North Korea changing 
its strategic calculus. The question is, What is it that we and 
our allies can do to affect changing North Korea's strategic 
calculus so that it moves in a different direction? And in that 
context, isn't really the key here, despite everything else 
that we are in the midst of pursuing, China and its potential 
influence with the North Koreans? And if that is the case, how 
is it that we can get the Chinese to be more robust in their 
efforts to get North Korea to change its strategic calculus?
    Ambassador Davies. Yes. Well, you have asked probably the 
biggest question that can be asked about North Korea policy, 
and I think you are hitting on key themes here.
    Changing North Korea's calculus is proving to be a 
challenge. Administrations of both stripes have been at this at 
least since Ronald Reagan was President and one can argue even 
before that.
    What we are attempting to do is continue to present a 
united front in terms of, if you will, concentric circles 
beginning with our allies in the region, extending out to our 
partners in the six-party process, China and Russia, and then, 
going beyond that, to try to build an international coalition 
that understands the threat that North Korea poses to the 
international system, not just on nonproliferation, but on 
human rights, how it comports itself in the international 
financial system, and so forth. North Korea appears not yet to 
be absorbing those lessons, but we will continue to certainly 
sharpen them working with our colleagues and with our friends.
    At a more basic level, we are working very closely, as we 
have for decades, with our South Korean ally to ensure that 
should North Korea miscalculate--and we call on them not to do 
that once again in the face of these new threats emerging from 
Pyongyang even in recent hours and days. We work with the South 
Koreans to make sure that we are ready from an alliance 
standpoint militarily to deal with any threats that arise. So 
that is very much at the macrolevel, if you will, how we are 
dealing with this problem.
    You mentioned China. You are absolutely right about China. 
China is a critical piece of this challenge. They are North 
Korea's closest neighbor. They are often North Korea's 
protector. They are certainly an ally of North Korea. They have 
had a special relationship of sorts for quite a while. So we 
are concentrating a lot of diplomatic energy and effort on 
deepening our dialogue with China to present to them the 
proposition that there is still a peaceful, diplomatic way 
forward to deal with the North Korea issue. However, it will 
not work and cannot work unless China steps up, plays its full 
role in bringing home to Pyongyang the choices it faces and 
setting the table, if you will, for any return to negotiations.
    I am afraid that the history of trying to draw North Korea 
into talks that can deal with its nuclear program, its missile 
program, and all of the other issues that we are concerned 
about has not been a fully successful one because the North 
Koreans have often been able to split us.
    We think it is time to work more closely with China but 
also, of course, with our close allies and other partners in 
the six-party process to bring home to North Korea the choices 
it faces and to try to direct them----
    The Chairman. Let me pursue that with you. For China, it 
seems to me--and correct me if I am wrong--there are two 
calculus here. One is they can do what they are doing with us 
at the United Nations today, which is pursue a set of new 
sanctions, and that will rattle the North Koreans to some 
extent. Or they can choose to go ahead and significantly cut 
back on that which is essential to North Korea's existence 
which is its assistance directly in fuel, as well as other 
sources. That would be far more significant.
    From your perspective, what is the Chinese calculus then? 
Now they are joining us--we welcome that--at the Security 
Council. But they have a much bigger, more significant ability 
by virtue of the incredible assistance it gives North Korea.
    Ambassador Davies. Sure. I think the safest thing to say 
about the Chinese calculus is it is evolving. I mean, yesterday 
we were greeted with the news, somewhat stunningly, that 
Chairman Mao's grandson, who was a general in the Peoples 
Liberation Army, called on North Korea to move forward on 
denuclearization. So there are some stunning developments 
occurring within China. One could almost describe it as the 
beginnings of a debate about how China will deal with its 
neighbor. Relations have not always gone smoothly of late 
between the two countries.
    Now, I do not think it is up to us to try to figure out how 
to engage too deeply in that internal dialogue in China, but I 
think those are very helpful signs.
    You are right. China is always the ``get out of jail free'' 
card for North Korea. They can always provide ways for the 
North Koreans to export materials, import materials, should 
they wish.
    China, however, is part of the Security Council. I have 
just been given a note that the resolution has passed. The 
Chinese played a big role in crafting that resolution. It 
contains lots of new provisions that we could talk about.
    So I think that there are signs that China is beginning to 
step up even more robustly to play its role. They say that they 
enforce these sanctions. We take them at their word. We trust 
but verify on that front and will continue to engage the 
Chinese to deepen our dialogue and to ensure that the Chinese 
do the maximum amount they can to deal with this problem.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Again, Ambassador, thank you for your testimony.
    I hear of the things that you are working on and we thank 
you for your work. And we understand this has been going on for 
20 years and through many administrations. But when you talk 
about verifiable denuclearization, it seems to me that we 
continue to go in the opposite direction. And while we are 
talking today, I know, at the Security Council about some 
additional sanctions, it feels to me more like we are at a real 
crossroads, that this is not about additional sanctions, but we 
are at a crossroads where if something does not happen soon, 
there is no way that we can begin talking about verifiable 
denuclearization.
    Do you agree with that, or do you think, just adding on 
additional pressures in the way we have been doing it, will 
work at some point?
    Ambassador Davies. Well, I think it has to be a combination 
of all of the above plus more. I mean, I think we need to 
continue to press North Korea when necessary, and right now it 
is necessary to do that because they are in a provocation's 
phase. And so, therefore, you are getting the reaction from the 
U.N. Security Council. So I think pressure through sanctions is 
important.
    I also think we need to stay strong in our alliance with 
the ROK, present a united front there, continue to sharpen and 
deepen our capabilities.
    I also think it is important to continue to build this 
international coalition. I mean, 80 nations is somewhat 
stunning. You have got nations like South Africa, Brazil, even 
Communist nations like Laos and Vietnam, issuing statements 
condemning this most recent nuclear test. So the Greek chorus 
out there in the world is growing in volume.
    And you are right. That is only good as far as it goes 
because what is most important is to change North Korea's 
calculus. So, therefore, we need to also be ready to engage 
North Korea in credible and authentic talks, if we can ever see 
that they are prepared to take real steps to denuclearize and 
to address our concerns. I think all of those things are 
exceedingly important.
    And I think also, very quickly, we need to take account of 
what we have achieved over the last 60 years. We have worked 
with South Korea and helped them create a bit of an economic 
miracle. I think the ratio is now 36 to 1 in terms of the 
amount of goods and services produced per capita by the average 
South Korean as against the average North Korean. So things are 
not going well from the standpoint of the correlation of forces 
when it comes to North Korea right now.
    So I think we move on all these fronts diplomatically, 
militarily, in terms of the international coalition. I think we 
need to keep drawing attention to their human rights, and I 
think by continuing to press them and continuing to present to 
them the opportunity, should they choose to accept it, to come 
talk to the international community and find a different way 
forward, away from provocations, away from bluster, away from 
threats, and move toward a different future that is absolutely 
available for them, I am at least guardedly optimistic that at 
some point they will see that is the way to go. And I think 
that is why we need to stay true to our principles and keep 
that pressure on.
    Senator Corker. I know you talked about us ensuring that 
Japan and South Korea and our other allies understand that we 
are going to be there to protect them. And yet, I think you are 
aware that we are not investing in modernization here in our 
own country regarding our nuclear armament as we should. Does 
that create any concerns with our allies that they see us 
really falling behind and not doing the things in our own 
country to ensure that that deterrence is there?
    Ambassador Davies. I mean, to be fair, I work for the State 

Department, and that is a question ultimately for our Defense 
Department and defense planners, but I can take a bit of a stab 
at it.
    Senator Corker. If you will, take a short stab.
    Ambassador Davies. I will take a short stab.
    I have not seen in my frequent travels in Japan and the ROK 
that there are really deep concerns that our commitment to them 
is at all in jeopardy, and I think because we have begun what 
is called popularly the ``pivot to Asia,'' we have begun to 
devote even more resources to the Asian theater, and I think 
that has gone, to a great extent, to reassure them.
    Senator Corker. So, you know, the mechanism that is funding 
this nuclear activity uses illicit activities. And we have ways 
of countering that. There are some people that are saying we 
should call the entire North Korean Government as a money 
laundering concern, and we could then enforce against third-
party entities, some of which might reside in China. Could you 
talk to us about ways of getting involved in that illicit 
activity or stopping it so that it is not funding what they are 
doing from a nuclear proliferation standpoint and what your 
thoughts are about us actually being involved in clamping down 
on entities that are allowing that money to flow through?
    Ambassador Davies. Well, some of the sanctions that have 
been part of the now many resolutions that have been passed get 
at this. I think it is important that we remain vigilant.
    Senator Corker. But at present, they are not really doing 
what needs to be done. I realize that some of the sanctions get 
at that.
    Ambassador Davies. Sure.
    Senator Corker. But we are still not stopping the flow of 
money to these nuclear activities from illicit concerns. And is 
there more that we should be doing there?
    Ambassador Davies. Well, I think we are slowing it, and I 
think that that is good because it makes it more difficult for 
the North Koreans to gain the inputs they need for their WMD 
program. I think it is important, though, in a kind of a, you 
know, all-aspects policy to look at that. That is something we 
continue to work on.
    It is interesting. I will be quick here. If you look at the 
trend over a period of years, there was a time not so many 
years ago when these problems with supernotes, with 
methamphetamine exports, with the counterfeiting of cigarettes 
and drugs--this was really epidemic. I am not saying it is not 
still a problem. It is and we are very vigilant about it. But a 
lot of the steps that were taken by the international community 
led by the United States, I think, did a good job of making it 
much more difficult for them to do that. A lot more work to do. 
No question about it. I think you are right. It ought to be a 
focus of attention.
    Senator Corker. I know my time is up. I want to say I do 
agree with efforts to point out the human rights issues that 
are taking place. I think that helps us build an even greater 
coalition. And I would love to hear at some point about how we 
might influence the citizens there through a better broadcast 
activity taking place there.
    But thank you for your testimony and I look forward to the 
rest of your answers.
    Ambassador Davies. Thank you, sir.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Chairman Menendez.
    Thank you, Ambassador, for being here. I very much 
appreciate your service and willingness to go into these 
difficult situations.
    Could you tell us with regard to the WMD programs, what is 
the current estimate of when North Korea would have a warhead-
missile combination that could strike the United States? And 
what are the most effective means to prevent this from 
occurring or slowing down progress in that area?
    Ambassador Davies. A great question and it is a subject of 
a lot of debate among some highly qualified experts in the 
government and then among the expert community beyond, people 
like Dr. Sig Hecker out at Stanford who have tremendous 
expertise here.
    Senator Udall. He was the director of our national 
laboratory at Los Alamos.
    Ambassador Davies. Absolutely. Yes, he is a good friend. He 
is a national treasure. That is exactly right.
    What I am going to have to do is take a dive on this one, 
sir, because you are asking a question that really does go 
deeply into intelligence matters. I love the lights of cameras, 
but I think with all that attention, I would really rather not 
get into what I know. And I have to be honest that I am not an 
expert on these matters.
    So I think, though, as a general proposition, a lot of what 
is written in the popular literature about this by the think 
tanks and others is not too far off in terms of the estimates, 
some of which you have alluded to.
    But I am sorry. I cannot get into those highly classified 
intelligence matters.
    Senator Udall. I understand that, but I wanted you to just 
give us a general answer as you did. I think various folks have 
talked about a matter of months or even a year or so in those 
kinds of situations. And I am sure that we will be getting 
briefings on that.
    You know, a lot has been said about China's great cyber 
wall which blocks information critical of the Communist Party 
or policies from the Chinese people. But my understanding is 
North Korea has even a more robust restrictive policy in terms 
of the Internet. And it seems to me that one of the things we 
are seeing around the world, when you see democracy movements, 
is the Internet playing a role, the people being connected, 
people turning out in the streets as a result of that 
interconnectedness. And you may have noticed recently--and I 
know the administration did not bless this, but our former 
Governor, Governor Richardson, and Google's Eric Schmidt 
recently visited to try to, I think, promote the idea of the 
Internet in North Korea.
    And I was wondering should the United States be actively 
engaged in helping to create access to the Internet in North 
Korea? And do you believe that this is in the interest of the 
North Korean people as well as other countries in the region?
    Ambassador Davies. Yes, a great question. And that is 
right. It is in our interests to do that, but it is a tough 
target set to convince the North Koreans to open up. While we 
were not crazy about the timing of the Richardson-Schmidt trip 
to Pyongyang, I was pleased to see Eric Schmidt make those 
statements. I think that was a very important challenge that he 
kind of laid down to the North Koreans.
    Funny things are happening in North Korea. Interesting 
things are happening in North Korea that could eventually have 
an effect. You have 1.5 million cell phones now mostly among 
the elite and on a closed system, so huge limits there. They 
are not able to access the outside. But nonetheless, it 
promotes the spread of information within North Korea.
    We know from lots of good studies that have been done by 
private organizations interviewing these 23,000 North Korean 
refugees who found their way to South Korea, that there is a 
surprising degree of understanding and knowledge in North Korea 
about the world outside their borders. South Korean soap operas 
are popular, and it probably is a bit of a shock to North 
Koreans when they get a thumb drive and they stick it in their 
machine and they watch one of these to see South Koreans with 
one and two cars in their garages and flat screen TVs and all 
the rest. So I think that the media picture in North Korea is 
changing. That is important. That is happening organically 
because of the trade between China and North Korea.
    And I think we do need to look at entrepreneurial ways to 
promote more of that, get more information in. I think 
broadcasting is a big part of that. The Broadcasting Board of 
Governors spends a lot of time on this issue. We work with the 
ROK on that as well. We work with private groups. There are a 
number of NGOs, a number of evangelical organizations, and 
others who work hard to try to alleviate the challenges faced 
by average North Koreans, and their presence in the country I 
think is a great way to bring to the North Koreans an image of 
what Americans and the outside world are like.
    So I think across all of these fronts, there is much that 
is happening. There is much more to do. And I am very glad you 
raised it.
    Senator Udall. Ambassador, back to the nuclear weapons, and 
I think this one is much less in the classified area. Is 
getting North Korea to dismantle its nuclear weapons still the 
goal of U.S. policy, and under what conditions might North 
Korea give up its nuclear weapons?
    Ambassador Davies. It is still the goal of United States 
policy to achieve a Korean Peninsula that is free of nuclear 
weapons. The United States a generation ago removed our few 
short-range weapons that we had there.
    We know this is not going to happen overnight even if we 
are able to get some sort of a diplomatic process started. I 
was personally engaged in following up the tremendous work that 
Ambassador Steve Bosworth did before he left my position to try 
to draw out the North Koreans to begin a process where we could 
go down that road and get them to, first of all, bound their 
nuclear program and eventually give them up.
    I think there is still a chance for diplomacy. There is 
still a chance for the six-party talks to work, but it will 
require a united front on the part of all of us who are part of 
it. And most of all, it will require a change of calculus in 
Pyongyang, and that is what we are working to. But I am hopeful 
we can get to that future. I am hopeful that within a 
generation or so we could see a very different picture on the 
peninsula, and that is what we are working toward.
    Senator Udall. Thank you, Ambassador.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you for being here with us. I know this is a 
difficult assignment you have been given by evidence of the 
fact that Ambassador Rodman last week visited North Korea and 
was not able to accomplish much either.
    Ambassador Davies. Yes, but he gave up the baseline. That 
was the problem.
    Senator Rubio. I know.
    You said a moment ago that you are guardedly optimistic 
that at some point this could be resolved through negotiations. 
I want to share with you my impressions based on the work we 
have done here and in some other committees that I serve on and 
get your impressions of that.
    My impressions are that the North Korean regime--what they 
seek more than anything else is legitimacy and acceptance for 
who they are and what they are. And in essence, what they are 
looking for is the following. They want the world to accept 
them as a nuclear power. They want to be legitimized as a 
government that the world accepts as is despite all of the 
atrocities they commit and all the weird things they do abroad. 
And they want to be accepted and they want to be insulated from 
foreign interference in their affairs. And they have concluded 
that the only way they can accomplish these things is by being 
a nuclear power. And their strategy for moving forward on all 
these things is this series of escalations with potential off-
ramps along the way that they conduct.
    So, for example, they do these tests on the missiles. They 
conduct weapons tests. They say outrageous things like they are 
going to--I forgot their exact rhetoric used a week ago about 
wiping out the U.S. forces if they conduct a joint exercise. I 
think it was last night or this morning that they said they 
were going to strike us here in the homeland.
    The point is that they use this escalating rhetoric and the 
actions that they take to further all this and to scare people 
or to get a reaction from the world toward one goal, and that 
one goal is very simple, to get the world to say, fine, North 
Korean regime, you can keep your weapons. We will accept you as 
who you are. That is their goal.
    And I am not sure how we can negotiate them out of that 
position at this point. I think that is very difficult. For 
example, I think they sit there and decide, do we want to be 
Muammar Qaddafi or Saddam Hussein or do we want to be here 
forever and be able to hold onto this thing. And once we have a 
nuclear weapon and particularly once we have the capability of 
striking the United States at the homeland, they will have no 
choice but to accept us. And everything they do between now and 
then is just to delay or buy time or to scare us into a 
position of negotiation.
    That does not mean I do not also hope that one day they 
will wake up and say, hey, this is bad for us. I just do not 
think a government like this can survive if they had to somehow 
get rid of their weapons and engage the world in a civilized 
way. And that is my concern. Why does this matter? For two 
reasons. And this is what I really wanted to share with you.
    No 1, because I believe that if you are Japan, if you are 
South Korea, if you are other countries in the region, if North 
Korea continues to expand and, in fact, it gets global 
acceptance of their nuclear program, they are going to want one 
as well. So I think this fear of an escalation of nuclear 
weapons in the region is very real.
    And the second concern that we have is that other countries 
are measuring their behavior. I think Iran is closely watching 
what is happening with North Korea. By the way, Iran has very 
similar goals. They want to be accepted as the government that 
they are, and they want to be insulated from foreign 
interference. And they think the nuclear weapons system is the 
way to do it. And they are watching very closely the way North 
Korea is being treated by the global community and determining 
from that how they need to proceed forward.
    So I do not share this guarded optimism. I hope I am wrong. 
I really do. But the reality of it is, I think, the best we can 
hope for here is three things.
    No. 1, we have to do everything we can to delay and 
preferably prevent them from accomplishing the goal of being 
able to reach the United States or the West with these weapons.
    No 2, we should never allow the world to forget who these 
people are and what they are doing. And their list of 
atrocities is too long to catalog here today, but they kidnap 
people abroad. Any religion, particularly Christianity, is 
banned, punishable by death. Google has begun to catalog all 
these gulags that they have all over the country. The list goes 
on and on.
    And third, I think we need to begin to create the 
conditions, God willing, for reunification, which is impossible 
today. Today that is not going to happen. But we do not know 
when the moment comes if those conditions become possible. And 
I think we need to do everything we can, along with our 
partners in the region and the world, to create the conditions 
where hopefully one day we could have a unified, democratic, 
peaceful Korea. And that is not possible today, but we can 
begin to create the conditions where hopefully one day that 
will be possible. Who could have predicted East Germany would 
have fallen, but it did. And one of the best ways we can do 
that is to strengthen and continue to strengthen our 
relationship economically and militarily with South Korea.
    Those are my general impressions of this issue. I know that 
as a diplomat, your job is to try to bring a resolution to this 
that is negotiated. I just do not think that is going to happen 
with this guy because I think they are convinced that the only 
way they are ever going to accomplish what they want is by 
having a nuclear program and being able to hold the world 
hostage with it.
    Ambassador Davies. Thanks so much. And let me just 
quickly--I mean, I do not disagree with anything you have said. 
This is one of the hardest foreign policy problems out there 
and not just for this particular administration but for many 
predecessor administrations. So you are right about all that.
    Everything you prescribe I think is being done in one form 
or another: delaying their acquisition of these materials, 
working hard--and here Ambassador Joseph I think will have more 
to say--to prevent them from proliferating these technologies, 
never letting people forget the nature of this regime and what 
it is they have done to their own people, what it is they are 
doing to the international system by remaining an outlier.
    And you talk about creating conditions for unification.
    I think here you are right. What we need to do is continue 
to support the Republic of Korea.
    What the ROK has done over the last couple of generations 
is nothing short of a miracle in terms of the way it has pulled 
itself up by its bootstraps, created the 11th-largest economy 
in the world, become a much, much more stronger nation. And I 
think we need to do all of this, and we certainly need to work 
more closely every day with the ROK and its new President, 
President Park Geun-hye, to present this united front to North 
Korea and to do that also more broadly.
    Within hours of their nuclear test, all of the other five 
parties, China and Russia included, issued statements 
denouncing what they had done.
    So I agree with you.
    Senator Rubio. Can I just ask about the: Are we potentially 
in the midst of a recalibration among Chinese policymakers with 
regard to the utility of their current situation with North 
Korea? Is it possible that we are in the moment that the 
Chinese are looking at the situation and saying they are no 
longer what they once were? We really do not need the headache 
that these guys are.
    Ambassador Davies. Well, you know, we might be. They are 
clearly not pleased in Beijing that every time they have tried 
to impress upon the North Koreans that they should take a 
different path, North Korea thumbs their nose at them. And we 
have seen stunning developments, articles appearing in the 
press that have to have been done with the knowledge of the 
central authorities. I mentioned Chairman Mao's grandson 
speaking out on this issue. You have got the Chinese 
blogosphere and netizens in China who, after Fukushima Daiichi, 
are saying what goes here. There is a nuclear test right across 
the border with North Korea. This country is still testing 
nuclear weapons 15 years after the last country tested a 
weapon. So things are changing in China.
    What does it all mean? Where is it all headed? Will it 
create a fundamental shift in their strategic calculus? Very, 
very hard to say, but we are watching it closely.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman, and 
thank you for your testimony.
    There are three major challenges that I want to talk about. 
You have already talked about them.
    One, it is clear that North Korea is moving aggressively on 
its nuclear weapons program.
    Second, as Senator Rubio pointed out, the record on human 
rights violations in the country is one of the worst of any 
country in the world, the way they treat their people, no 
opportunity for dissent, no opportunity for criticisms. Their 
kidnapping and torture are notorious.
    And the third is the condition of their own people, the 
level of poverty, the level of hunger.
    So I want to ask you three points that have been raised.
    One is that North Korea has threatened to cut off the 
military hotline. How important is that in dealing with the 
threat of confrontation?
    Second, the United Nations is looking at a commission on 
human rights. Should we have any confidence that that, in fact, 
would put an adequate spotlight on what is happening?
    And the third is our contact in North Korea is limited. We 
do not have a great deal of NGOs to work with. We are not 
providing any significant aid at all. Should we be reevaluating 
the United States participation with NGOs to try to reach out 
to deal with the population itself in North Korea?
    Ambassador Davies. Great questions. Let me be quick about 
that.
    The hotline cutoff. They have done this before. It is one 
of the things they do on occasion. I do not know that it is 
necessarily the case that this latest threat to cut off the 
hotline--or perhaps they have already cut the line--is going to 
be, at the end of the day, much different from what we have 
seen in the past. Nonetheless, it is serious.
    Senator Cardin. Have we used it in the past?
    Ambassador Davies. Yes. At the Peace Village on the border, 
it has often been used to convey messages back and forth.
    Your question about what is happening in Geneva and the 
likely, we hope, establishment for the first time of a 
permanent mechanism, a commission of inquiry, to look at North 
Korean human rights, I think this is a significant development. 
It is somewhat stunning that this has not been the case in the 
past. But anyway, the United Nations is, we hope, going to take 
that step. And I think that it is not a magic bullet, but I 
think it will be a great way for the entire international 
community institutionally and indefinitely to look at what is 
going on in North Korea and to broadcast to the rest of the 
world the results of their efforts.
    On NGOs----
    Senator Cardin. Before we leave that point, are there still 

hurdles that have to be overcome for that commission to be 
established?
    Ambassador Davies. Well, it is not done yet. The Human 
Rights Council has not looked at it. And having served a couple 
of years in Vienna working in the U.N. system, I know nothing 
is done until it is done in U.N.-land. So we will see.
    But we have reason to believe that there is the right kind 
of correlation of forces. The European Union is behind this. 
Japan is behind it. The ROK has just announced their support 
for this mechanism. We are actively seeking it. And of course, 
I had mentioned in my statement that U.N. officials are behind 
it and promoting it. So I think the planets are lining up. It 
is going to happen, I hope. And we are going to do what we can 
to make it happen. And it will have an effect.
    On NGOs, that is a great point. Yesterday during the snow 
day that wasn't, I was in the office and I was on a wonderful 
conference call with about seven NGOs, Mercy Corps, GRS, many 
of them religiously based. These people do heroic work in North 
Korea. And it is very unsung. They get in there. They do 
medical programs. They get out of Pyongyang, that walled city 
where the elite lives, and they get into the countryside and 
they do everything from tuberculosis work to digging wells to 
helping hospitals and dental clinics. You name it. And I think 
it is important that we do everything we can to kind of clear 
the path for them to do what they can do. It is not easy. And 
one of the concerns they had was about sanctions and whether 
sanctions will affect their ability to bring things into North 
Korea to do the work they have got to do.
    I think we need to try to find a way--and there is a bit of 
a carve-out in the language of the resolution--to promote their 
work because I think that is exceedingly important that this 
kind of people-to-people work go forward. Why? Because one-
third of North Koreans, according to a number of studies, are 
severely, chronically malnourished. They are clearly forgotten 
by the elites who live in Pyongyang building amusement parks 
and holding rock concerts and so forth. And so it is very, very 
important that we do what we can to work with them.
    Senator Cardin. We have, in the past when we have imposed 
sanctions, tried to figure out ways that we can get direct aid 
to NGOs that we have confidence in to provide the type of 
humanitarian aid that is appropriate. Do we have confidence 
that if that aid were to be made available, that the NGO 
network is strong enough and there is enough accountability 
that we would be able to assure that the aid, in fact, went for 
the designated purpose and was not diverted to compromise the 
importance of the sanctions?
    Ambassador Davies. Well, the NGOs take it very seriously. 
They have got decades of experience. They are very good about 
it. A lot of their work is scaled such that it is a lot less 
likely that the regime is going to try to divert the resources 
that they provide, the services to the military or the elites. 
I have been impressed as I have looked at the specifics of 
these programs that they have underway. They have, to a great 
extent, figured out how to do this, and whether it is flood 
relief or whether it is bringing nutritional supplements to 
malnourished children, they are one of the ways we ought to go. 
And when we have done big feeding programs in North Korea--
there was the 500,000 metric ton program under the previous 
administration that the North Koreans cut off only about a 
third of the way into it. And this most recent one we tried to 
put in place--we do most of that work through U.S. NGOs because 
they are that good and they have the right understanding of how 
to ensure that the goods and services they provide get to the 
people who need them.
    Senator Cardin. I will just make a final point. For 
Congress to allow that type of assistance, we need to know and 
have confidence that we can account for how the aid is being 
used since we are not present in the country to be able to do 
that. We have to have that type of confidence. So it is 
something that you need to be able to build up as far as the 
questions that will be asked in Congress.
    Ambassador Davies. Absolutely. Thank you, sir.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Davies, welcome. Thank you for your testimony.
    Can you just kind of bring me up to speed in terms of the 
progress of the new leader in terms of his consolidation of 
power and how much of that consolidation really leads to the 
high jinx we have been seeing here recently?
    Ambassador Davies. Well, that is a really hard target. A 
lot of terrific intelligence professionals work at that. We 
stay in close touch with our European allies, some of whom have 
small embassies there. I just, a week ago, spent a couple of 
hours with the ambassador of one of those nations who had lots 
of insights to provide about the thinking of the government.
    Just as a general matter, I think what has happened was, 
you know, Kim Jong-un came into power the beginning of last 
year on the death of his father in mid-December in 2011. There 
was then this period that lasted a few months where everybody 
was saying, oh, this may be a new day. He is a young Gorbachev. 
One think tanker even talked about a Camelot moment occurring 
in North Korea. I personally was not buying any of this stuff 
at the time, nor were many in Government. But what we have seen 
is that that debate has gone away, that the hope for the kind 
of a more enlightened approach to these issues--that is fading 
fast.
    I think he has consolidated his power. He has now got the 
six key titles. He is the head of the army, head of the 
military, head of the government. And remember, the logic of 
their system is such--it is such a strictly hierarchical, 
dictatorial, top-down system that in order for that system to 
operate as it has for the last three generations, there has to 
be a man at the top to whom all issues are referred and from 
whom all wisdom flows. So we think that he is, for all intents 
and purposes, in charge.
    And as to why he has taken the steps he has taken, some of 
the purges, I think some of that has been consolidating his 
power, firing the generals and so forth, and then all of this 
tough talk going on--it is hard to say why they are doing that. 
I think a lot of it is just their classical reaction to the 
fact that the international community increasingly is coming 
together and making it tougher for them operate. So I think 
that is the kind of acting out that we often see from North 
Korea.
    Senator Johnson. Thank you.
    I am new to the committee, but I have certainly been 
watching the laying out of sanctions and then relaxing them a 
little bit, basically the dual strategy here. Can you tell me 
in your mind what was the most effective set of sanctions? I 
will start there. I mean, what worked best. But I also want you 
to speak to what mistakes were made. What lessons have we 
learned both in terms of the effectiveness of sanctions and how 
we maybe relaxed them and basically how the United States has 
been kind of played like Charlie Brown more than once here?
    Ambassador Davies. Yes, but on sanctions I think what is 
important--the most important sanctions often tend to be the 
ones that have the buy-in of the broadest number of nations. 
And here I talked about the role of China and the importance of 
working with them to ensure that they follow through on their 
commitments when it comes to sanctions.
    What is the most effective set of sanctions? That is hard 
to say. You know, I am tempted to say that probably the 
sanctions that have helped to cut off the flow of luxury goods 
is pretty important because it has prevented the regime, to 
some extent--they find ways around it, but of rewarding members 
of the elite.
    But I think a more serious answer is that the sanctions 
that are getting at the nuclear program, getting at the missile 
program, preventing the inputs from going into North Korea that 
they need in order to build up those weapons of mass 
destruction programs, those are the most important.
    This latest resolution that I was given a note that has 
passed in New York contains not only a tightening of the 
existing sanctions but it has got some new sanctions in it that 
get at that problem. And I think we need to keep building on 
that. I think what you will see is that there will then be 
national sanctions that will be promulgated by not just us but 
others in order to tighten sanctions down further.
    But I think it is in the missile and nuclear areas where 
the sanctions are having the most effect and then finally, 
interdiction which is to say--and this new resolution has a lot 
of good stuff in it about preventing the export by North Korea 
of its armaments, which is a key source of income, by sea and 
by air. And there is a lot in this resolution that gets at 
that, and I think that is what we need to keep working on first 
and foremost.
    Senator Johnson. Did we not freeze bank accounts at some 
point in time for the top leaders?
    Ambassador Davies. We have done a number of financial 
sanctions that are more in this particular resolution approved 
just minutes ago. There are individual designations of key 
people and their apparatus who play key roles in exporting 
their materials, importing what they need to build up their 
programs, travel bans on these individuals, and so forth. So it 
is a combination of these individual designations, 
institutional designations, and then also the specific inputs, 
the actual machinery and technology that they need. And I think 
we just need to push on all of these fronts and keep it up.
    Senator Johnson. Senator Rubio mentioned the word 
``recalibration,'' and somebody else talked about strategic 
calculus. Of the members of the six-party talks, what has been 
the most significant movement or most significant recalibration 
of the strategic calculus whether it is Russia, China, Japan? 
Can you just speak to that? I mean, where has there been some 
movement just to give me some sense of that history?
    Ambassador Davies. Well, I think the movement--it is a 
little bit like, I have to admit, watching paint dry sometimes. 
It is such a long process. But I think the movement has been 
incremental. I think the movement has been all of the various 
efforts, and there have been really quite a variety of 
approaches to this problem by various administrations in the 
past whether engagement, whether pressure, different 
architectures internationally, six-party talks. There were 
four-party talks at one point, and here Ambassador Bosworth can 
speak to a great deal of this. I think the biggest change has 
been just the steady accumulation of experience, of pressure, 
of sanctions over the years, over the decades, and I think that 
has made a huge difference.
    And then the final thing I will say is that, you know, the 
world is beginning to wake up to a greater extent to this 
problem. It is still kind of stunning, as a diplomat, that 80 
nations from every corner of the world would issue statements 
condemning North Korea's nuclear test. These are developments 
we would not have seen even a few years ago. So this coalition 
is building. It is growing. It is strengthening, and it is 
meaningful because these are people who send messages to North 
Korea. They send messages to China. And it is very difficult in 
an international system for a nation like North Korea to ignore 
the fact that increasingly their actions are seen as 
deleterious to the functioning of the world system and to the 
interests of these countries.
    So it is hard for me to point to one particular 
recalibration that has occurred. Maybe what is going on in 
China will fit that bill. But I would just say that it is this 
incremental deepening and broadening of pressure on North Korea 
that has been most important.
    Senator Johnson. OK, thank you.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to start by talking about the North Korean 
economy. I think there is this sort of popular impression that 
the North Korean economy is sort of this vast wasteland of work 
camps and starving people, and while that is certainly true for 
a big part of the country, there is also a relatively stable 
economy in the capital. There is a class of ruling elites that 
are doing fairly well. And you mentioned in your response to 
Senator Johnson briefly about the impact that our sanctions 
have had on holding back luxury goods from that class of 
individuals that has seemingly been pretty resistant to the 
type of poverty that has struck the rest of the nation.
    Can you talk a little bit about the state of the North 
Korean economy today? Can you talk a little bit about our 
relative success or lack of success in trying to change the 
calculus for the ruling elite based on their economic status 
and any new tools that may be at our disposal to try to change 
that?
    Ambassador Davies. Yes. Well, the economy question is a 
great one, and there are a number of experts who look at this 
hard. It is tough to measure. They do not produce statistics 
that are at all reliable to indicate the scope of it.
    Many people are fooled when they go to Pyongyang which, as 
I have said, is a bit of a walled city state. You cannot easily 
get in and get out where the elites live, and they see people 
with cell phones and they see a few more cars on the street, a 
few more restaurants, and they conclude that North Korea is 
really coming up in the world economically. I do not think that 
is the case.
    They have some goods and services to offer to the world. 
They have mineral deposits that are of value certainly to China 
which seeks to exploit them and others. They export laborers to 
Russia and China and other places around the world who remit 
moneys to North Korea. Their economy in some sectors has done 
reasonably well.
    But the problem, of course, is that their agriculture 
sector remains unreformed; their light industrial sector, the 
same. When the new leader came in, he made a number of promises 
about--hinted at reforms that he would institute. We have yet 
to see that. For whatever reason, he seems to have drawn back 
from going forward with those reforms. To some extent, reform 
of the North Korean economy would be good for the North Korean 
people, and the Chinese are often telling us that we should 
help the North Koreans reform their economy and we beg to 
differ on that.
    And I am sorry. Your second question, sir?
    Senator Murphy. No. That was the first question.
    The second one would be this. So to what extent is food aid 
an actual tool to recalibrate their strategic interests? We 
have certainly had success in these temporary agreements by 
exchanging food aid for concessions on their nuclear program, 
but of course, 
as we saw with the Leap Day Agreement, it can blow up within 
months.
    Ambassador Davies. Sure.
    Senator Murphy. Is this a real pressure point in 
negotiations, or have they just used this as a means to sort of 
delay and delay and postpone?
    Ambassador Davies. Yes. I think the latter is the case.
    We do not link food assistance to political matters. What I 
found, when I came into the process toward the end of our 
yearlong effort to negotiate this deal with the North Koreans, 
was that the North Koreans were insisting that the offer we had 
made of 240,000 metric tons be linked to the concessions they 
were going to make on nuclear and missiles. So they enforced 
that linkage from their side. We do not use food as a weapon or 
a tool and we do not link it to political matters.
    And no country has been more generous than the United 
States over the years in providing food to the North Korean 
people I think since 1989, if I have the statistic right or 
1997. It has been on the order of some $800 million of food, 
almost 2 million metric tons. So we support the people of North 
Korea. We try--and it is not easy--to bring them aid and 
comfort, bring them food because it is quite clear that the 
authorities in Pyongyang do not care about what happens in the 
hinterland of North Korea, and they allow this malnutrition and 
sometimes, as was the case in the 1990s, starvation to occur.
    So we do not link the two. I would never posit or put 
forward that food aid is something we should use as an 
inducement to political change or change on denuclearization.
    Senator Murphy. Thank you.
    And then one last question on China, and you may have 
responded to this in response to Senator Menendez. But in 
particular to what Senator Rubio talked about with regard to 
the arms race that could develop in the region should they get 
full nuclear capacity, what does China think about that? I can 
understand that they could say, listen, we can control the 
North Koreans if we continue to be responsible for 70 percent 
of their economy. Even if they do get nuclear capacity, we can 
deal with that. But they have to understand that the balance of 
power in the region dramatically shifts if all of a sudden 10 
years from now or 15 years from now there are three or four or 
five nuclear powers in the region. Is that a bright line for 
them? Do they view that as a serious threat?
    Ambassador Davies. Well, I mean, the last thing I will do 
is speak for the Chinese on this. But there are signs that the 
Chinese are watching closely these debates that are occurring, 
in particular in Japan and the ROK among some. I do not think 
any consensus is developing or will develop in favor of going 
forward with developing nuclear weapons. I certainly hope not 
because it is important from the standpoint of the integrity of 
the Nonproliferation Treaty that they not go forward in doing 
that. But the Chinese are taking notice and I think it concerns 
them.
    You know, one of the things that we say to them when we 
have these conversations about what is happening in North Korea 
is if you have concerns about America's kind of recalibration 
of its force posture toward Asia, then if North Korea continues 
to go in the same direction and we cannot find a way to work 
together to resolve it, you will see more of the same and you 
are not going to like it. You will see more developments such 
as the extension by the ROK of the range of its missiles. You 
will see more developments like the placement of TPY-2 radars 
in Japan. You will see more on missile defense. You will see 
more on the rest of it.
    And so you have some voices in China talking about, oh, 
well, this is the United States trying to encircle us. It is 
not what we are trying to do at all. What we are trying to do 
is defend ourselves. And I think that they know these phenomena 
are related. And I think that they are concerned about it and 
we hope it becomes an incentive for China to step up and do a 
bit more, given their special relationship with North Korea, to 
try to resolve this problem. And we stand ready to work with 
the Chinese to do that.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Special Representative Davies, I am just going to pick up 
on the chairman's opening question, which I think we are all 
kind of grappling with. What is the right way to change the 
calculus with North Korea vis-a-vis the nuclear program? And 
many of the questions thus far have been about external 
measures, and I want to get to those in a second.
    But I would like to get your sense on internal measures. 
You know, looking at the history of nations that have decided 
to abandon nuclear programs, often it has been an internal 
political calculus that has caused them to do so.
    In looking at some of the events of the Arab Spring, you 
know, what struck me was that people grow to tolerate all over 
the world sadly and live under dictatorships, but they start to 
get restive under hereditary dictatorships. And so whether it 
was in Egypt in a time of potential transition to a new Mubarak 
or a Libya in a time of potential transition to a younger 
Qaddafi or Syria with a second Assad, once the dictatorship 
starts to become a hereditary dictatorship, then there is some 
restive possibility that a population decides that it wants to 
throw it off.
    Let us talk about the internal dynamics of North Korea and 
just educate me a bit on that. I mean, is there any potential 
for internal dissent that could drive a rethinking of the 
nuclear program? And is there anything we can appropriately do? 
It is kind of like hydrofracking, you know, finding the 
microfissures and then doing things you can to widen them. Is 
there anything we can appropriately do to drive that dissent 
and increase it?
    Ambassador Davies. We do not see signs of significant 
internal dissent in North Korea, and maybe that is often the 
case before changes occur. I do not know. So that presents a 
challenge to us to figure out where do you drill and what do 
you pump into that hole in order to engage in this kind of 
fracking. I love that image. So it is tough.
    I think the important thing is to keep firing on all 
cylinders, to keep broadcasting into North Korea, to continue 
to work with our allies who do a great deal of this work with 
NGOs. I do think the situation is changing in North Korea. They 
are educated. They are, I think many of them, hungry for 
information about what is happening on the outside.
    But when it comes to the classical stuff that we all know 
from history about, well, is there a unity army or is there 
somebody in the regime who is susceptible, there is nothing 
like that that presents itself to us right today that we can 
exploit or reach out to. And it makes it a very, very, very 
tough problem set.
    Senator Kaine. And just explain that as somebody who is an 
expert in this area, the absence of this kind of visible 
dissent. And you are in good touch with nations that have 
diplomatic presence in North Korea. Is it just the sheer 
demoralization and poverty of those who do not have any 
credible ability to match up against a military power? Is it 
the long-term effects of famine? Is it a cultural--I mean, how 
would you describe what we are seeing elsewhere we do not see 
there, given famine, given the poor economic conditions that 
would drive dissent elsewhere?
    Ambassador Davies. That is really hard for me to answer. I 
am not a lifelong North Korea expert.
    I do not think we are going to know if and when that 
opportunity necessarily presents itself any better than we have 
in recent years when we have seen dramatic change in parts of 
the world where there were authoritarian or dictatorial 
systems. And the problem with North Korea is it is just the 
most hermetically sealed, high-walled, paranoid state out 
there. I do not think it really has its modern equivalent 
anywhere else in the world.
    Senator Kaine. Since Albania fell----
    Ambassador Davies. Maybe Albania.
    Senator Kaine [continuing]. It does not have an equivalent.
    Ambassador Davies. Maybe Albania.
    So I have to admit that even though a lot of very 
dedicated, qualified people work this issue in the intelligence 
community, in our military, out of the State Department, and we 
do that on a daily basis, there is not anything there that I 
can point to right now as the pressure point, the fissure that 
we can exploit.
    I keep coming back to the necessity for staying true to our 
principles, staying close to our allies, working hard with our 
partners, in particular China given their relationship, 
highlighting the human rights depredations in North Korea. And 
I believe that there will come a day when things will likely 
change. I do not think that North Korea has forever to make the 
strategic choice to go in a different direction that will 
involve reaching out to the rest of the world and fulfilling 
its promises and going down the path of denuclearization. That 
is it. They have got an off-ramp. There is a way that we can 
work this peacefully, diplomatically that we presented to them 
time and time again, and they have chosen not to take us up on 
it. We will continue to do it, and some day, I am convinced, 
when the pounds per square inch of pressure builds up enough, 
they may see the light and decide, well, maybe we ought to take 
door No. 1. I hope that is true.
    Senator Kaine. Let me ask about external pressure. Good 
questions have been asked already about the five parties to the 
six-party talks and China especially. But there are other 
nations that we have strong relationships with that aid and 
abet or at least have interactions with the North Korean 
Government that probably help them to gain or continue momentum 
on their illicit activity, nations like Egypt and Pakistan and 
the UAE that are not a direct part of those talks. But talk 
about our abilities to utilize those relationships and, either 
through the U.N. action today or other actions, get them to 
stop anything that would promote North Korea's forward momentum 
on nuclear proliferation.
    Ambassador Davies. That is a great question. We work at it 
all the time. There have been some successes. I mean, you are 
familiar with the Burma example where the new government has 
made the strategic decision to go in a different direction and 
to change the nature of its relationship with North Korea. That 
is very important. That will still take some time to play out 
and work through. The same is true of many of these other sort 
of traditional customers or states that have dealt with North 
Korea. Since the 
al-Kibar reactor was taken care of in Syria, I think that is a 
relationship that is no longer what it was.
    So the truth is we take it case by case. We work with these 
countries that still maintain an arms relationship with North 
Korea. I think this effort to expand the international 
coalition and consensus about North Korea is important because 
the moral hazard of dealing with North Korea becomes a more 
important factor, I think, for many of these countries. But I 
guess the short and honest answer is it is a case-by-case 
effort that we undertake and we are seeking to step it up. And 
this resolution passed today in New York I think is going to 
help us, to a great extent, to get at that problem.
    Senator Kaine. Great. Thanks very much.
    The Chairman. Senator Flake.
    Senator Flake. I apologize. I had a couple other markups 
and hearings going on.
    I just want to ask--and I am not sure how this has been 
asked or answered before, but do you believe that for the 
reductions on our part as a result of these treaties will do 
anything to persuade the North Koreans to move ahead with 
reductions or not moving ahead with what they are doing? How 
effective is what we do or how persuasive is that with their 
own actions, or is that completely independent?
    Ambassador Davies. Well, here I can draw on my couple of 
years working at the International Atomic Energy Agency where 
in the wake of the President's Prague speech where he set out 
his vision for a world without nuclear weapons, I found, 
representing the United States in that body, a 150-nation body, 
that that had a tremendous effect on convincing a lot of the 
fence-sitters around the world that the United States was 
serious about trying to move forward because if you go back to 
Eisenhower's nuclear bargain, which he laid out in his Atoms 
for Peace speech, you know, it was quite clear. Those with 
nuclear weapons would seek over time to--you know the whole 
thing--get rid of them. Those without would pledge not to 
acquire them. And so for many, many, many countries in the 
world, the United States demonstrating that it is serious about 
keeping up its end of the nuclear bargain has a tremendous 
effect.
    Now, when it comes to North Korea, I am not going to spin 
you and tell you that the North Koreans are going to pack up 
their nuclear weapons and put them in a pile and burn them up 
if we pass further arms control treaties with Russia and so 
forth. But what it does is it has a tremendous effect on all 
189 nations who are signatories of the Nonproliferation Treaty, 
and it makes it easier for us and others who care a lot about 
this treaty to move that agenda forward, reduces North Korea's 
running room, makes it tougher for North Korea to continue to 
claim that they need these weapons in order to defend 
themselves. And so I think it is a vital aspect of winning over 
hearts and minds globally and eventually setting up a set of 
circumstances in which it is very, very difficult if not, one 
hopes, eventually impossible for them to continue to maintain 
as an international outlier this commitment to develop nuclear 
weapons.
    The Chairman. Senator Corker has one additional question.
    Senator Corker. Just one brief question. You know, I 
listened to you and I know that you are working hard and many 
people have for many, many years. But I think you basically, in 
answering some of the questions, have acquiesced and said, 
look, you know, this is probably going to continue on and we do 
not see any real changes and more pressure will be applied.
    I am just curious. We have a situation with Iran where 
there is a redline, and we have been pretty bellicose about the 
fact that we would use military action to keep them from having 
nuclear weapons. And yet, in Korea, equally nutty folks, human 
rights even worse--and it is bad in Iran too. But why is it 
that we have a policy in North Korea that is so different than 
what we have in Iran when you have equally bellicose and, I 
would say, regimes that certainly are rogue regimes? Why would 
we have such a differentiating policy?
    Ambassador Davies. Well, I think actually the policy has 
more commonalities than differences. In both cases what we seek 
to do is, as I said earlier, in the case of North Korea, use 
pressure when we have to use pressure and seek to exploit 
engagement when it is possible to engage them.
    I do not agree that there has been no change. I think that 
the pressure of the sanctions, the coalitions we have built, 
the work in six-party, a lot of the diplomatic efforts in which 
the gentlemen to my right who will testify next were intimately 
involved went a great distance to----
    Senator Corker. But they are certainly way past any kind of 
redline that we would accept in Iran. They are certainly way 
beyond anything that we as a country have stated publicly that 
we would accept in Iran. So it seems to me that we have two 
very different policies here. I am just curious why that is the 
case.
    Ambassador Davies. Well, I think we have two very different 
historical situations that have developed, and I think it is 
because of the different set of circumstances in both. I am not 
an Iran expert. I worked the issue when I was in Vienna, but 
that was some time ago. So I can quickly get myself in trouble 
by trying to compare the Iran case to the North Korea case.
    But as the North Korea case has developed, I think that 
there have been some successes. I think we have slowed their 
efforts to create these weapons. I think we have built this 
coalition that is going to continue to decrease their running 
room and their space within which they can operate. I have 
faith that if we stick with our principles that have been 
devised on a bipartisan basis over 20-30 years, that we will 
see the kinds of changes that we would like to see.
    And I am sorry. It is true. You know, these are pernicious 
problems. This is the land of a lot of bad alternatives. And so 
I think the way you deal with it is you stick to your 
principles. You stick to your allies. You make modest progress 
here, sometimes dramatic progress there. Occasionally there are 
setbacks, but you keep at it. And I think American leadership 
on this issue is absolutely essential. I think it has borne a 
lot of fruit. Sadly it has not changed the strategic situation 
yet, but I have got every confidence that if we keep at it, if 
we keep together, we are going to see sooner or later--hope it 
is sooner--the kinds of changes we hope are needed.
    And I want to reemphasize this one point. It is up to North 
Korea to understand that it has another path that it can take. 
It has a partner in the international community that will 
engage with North Korea, but it has got to be the one to make 
this decision, make this strategic choice, move toward 
abandoning nuclear weapons and missiles. And if they do, there 
can be a very different future on the Korean Peninsula and one 
that will be for the benefit of all the Korean people, North 
and South.
    Senator Corker. Thank you, Mr. Chairman.
    I think that is a highly aspirational statement that does 
not seem to be very based on reality today, but I thank you for 
your optimism. And yet, I will go back to my original premise 
and certainly would like to understand that more fully.
    Thank you.
    The Chairman. Well, let me just make an observation. First 
of all, we are very aspirational here. [Laughter.]
    Ambassador Davies. You have to be on North Korea.
    The Chairman. But I think in part just an observation on 
Senator Corker's question which is that, obviously, one of the 
reasons we have so vigorously pursued a sanctions regime on 
Iran is because Iran is not where North Korea is in terms of 
its nuclear program and we do not desire it to get to that 
point as North Korea has. So whether or not there was a 
different point in time in which maybe a previous 
administration should have adopted a very similar position as 
we have now with Iran, we are past that moment. And our 
question is how do we deal with the realities of the moment and 
try to change the dynamics, the strategic calculus both inside 
of North Korea and, I hope, the strategic calculus of China in 
this context, which plays a key role toward, hopefully, getting 
us to the point that we want to be.
    With the thanks of the committee and for your staying 
power, we appreciate very much your appearing here, and we look 
forward to continuing dialogue with you and the administration 
on this critical issue.
    As we excuse Ambassador Davies, let me call up our next 
panel.
    Ambassador Stephen Bosworth who served for over a decade as 
dean of the Fletcher School of Law and Diplomacy at Tufts 
University, and from March 2009 to October 2011, served as the 
U.S. Special Representative for North Korea Policy. From 1997 
to 2001, Ambassador Bosworth was the U.S. Ambassador to the 
Republic of Korea. From 1995 to 1997, he was the Executive 
Director of the Korean Peninsula Energy Development 
Organization, an intergovernmental organization established by 
the United States, the Republic of Korea, and Japan. And 
Ambassador Bosworth has a distinguished career in the U.S. 
Foreign Service for nearly three decades.
    Please, gentlemen come on up and sit right at the table.
    Joseph DeTrani is the president of the Intelligence and 
National Security Alliance. He previously worked as the Senior 
Advisor in the Office of the Director of National Intelligence, 
Director of ODNI's National Counterproliferation Center, and as 
the ODNI's North Korean Mission Manager. Prior to his work at 
ODNI, Ambassador DeTrani served at the Department of State as 
both a Special Envoy for Negotiations with North Korea and as 
the U.S. Representative to the Korea Energy Development 
Corporation. He has worked in numerous roles throughout the 
Central Intelligence Agency and has extensive experience in 
that regard as well.
    Finally, Robert Joseph is the senior scholar at the 
National Institute for Public Policy. From 2005 to 2007, 
Ambassador Joseph was the Under Secretary of State for Arms 
Control and International Security, and from 2001 to 2004, he 
served in the National Security Council as Special Assistant to 
the President and the Senior Director for Proliferation 
Strategy, Counterproliferation and Homeland Defense. Ambassador 
Joseph also served in the Department of Defense as Principal 
Deputy Assistant Secretary of Defense for International 
Security Policy and Deputy Assistant Secretary of Defense for 
Nuclear Forces and Arms Control.
    So we have a very distinguished panel here.
    I am going to ask each of you to summarize your statement 
in around 5 minutes. Your full statements will be entered into 
the record so we can have time for some dialogue here, as we 
move forward. We want to pick upon your expertise to draw some 
of the questions and answers to some of the issues that have 
already been raised with our previous panelist, Ambassador 
Davies.
    And so we will start in the order that I recognized you: 
Ambassador Bosworth, Ambassador DeTrani, and Ambassador Joseph.

   STATEMENT OF HON. STEPHEN W. BOSWORTH, DEAN, THE FLETCHER 
   SCHOOL OF LAW AND DIPLOMACY, TUFTS UNIVERSITY, MEDFORD, MA

    Ambassador Bosworth. Thank you very much, Mr. Chairman. I 
am grateful for the opportunity to appear before the committee.
    I will not try to summarize the current scene with regard 
to North Korea. I think Ambassador Davies did that quite well. 
I would only say a few things as an opening.
    First, this is obviously a very, very difficult problem, 
and it follows that there are no good options for dealing with 
it. If there were, I trust that some of us would have found 
those in the past.
    Instead, I think what we have found is that North Korea, by 
and large, has continued to exceed reasonable expectations as 
to what they could accomplish technologically both in their 
missile program and in their nuclear program. Having followed 
this issue for now 20 years, I would venture to say that they 
have consistently outperformed the expectations of the outside 
world, and I do not think we have time to get into the question 
of why. But they have created a situation in which now they are 
demonstrably within reach over some period of time of being 
able to, as someone put it earlier today, mate a nuclear device 
with a missile, and that changes the strategic balance in a 
number of ways.
    As I said, the options for dealing with them are very 
limited and very obscure. We can, as we have in the past at 
various times, simply stand back and wait for what we 
considered at the time to be the inevitable collapse. That 
policy has clearly not succeeded. We began waiting for their 
collapse back in the late 1980s, and when I last checked, they 
are still there.
    Similarly, we can rely on a policy of containment and 
deterrence, which we will have to do in any event. But I think 
what we have found is that containment and deterrence do not 
prevent the threat from growing more acute.
    Also, we can, of course--as has been hinted in various 
questions this morning--rely more heavily on China to somehow 
solve this problem for us. I am not optimistic that China is 
going to do that. I am encouraged by their apparent willingness 
to contemplate tougher sanctions as they have this last time 
around in the United Nations.
    But I think China continues to face an essential conundrum 
which is that while on the one hand, they do not want North 
Korea to become a nuclear weapons state, on the other hand, 
they also do not want North Korea to collapse. And in their 
view, they are concerned that bringing sufficient pressure to 
bear on North Korea to stop their nuclear program, much less to 
dismantle it, would risk creating a situation in which North 
Korea could collapse. And for China, an equally undesirable 
outcome of all of this would be to wake up some morning and 
find that the border of South Korea is now the Yellow River 
because North Korea has collapsed and South Korea with a 
military alliance with the United States. That changes in a 
very fundamental way what has been called the correlation of 
forces on the Korean Peninsula. And Chinese strategic thinkers 
have to have this very much in mind.
    All this being said, my own personal view is that at some 
point--I cannot say exactly when, but I would think sooner 
rather than later--we will come back to an effort to engage 
with North Korea in some manner only because the alternatives 
are so bleak. And I think that that probably is what we should 
try to do because we have no good options.
    The question that will exist at that time is engage on what 
basis. Do we again seek to engage on the basis of 
denuclearization pretty much by itself at least as a primary 
objective, or do we seek to engage on a broader basis going 
back, for example, to the joint statement negotiated in the 
six-party process back in September 2005 in which all of the 
parties signed on to a four-goal/four-objective formulation: 
denuclearization, a peace treaty to replace the armistice of 
1953, establishment of diplomatic relations among all parties 
concerned, and agreement to provide energy and economic 
assistance to North Korea.
    In my view, it would be more productive to seek from the 
outset to engage with North Korea on the basis of that broader 
agenda which seeks, in my judgment, to get at what is really 
the fundamental problem on the Korean Peninsula, the problem 
which gives rise to the nuclear threat and that is the inherent 
weakness of North Korea and the strong conviction of the North 
Korean regime that it will not do anything which risks its 
demise.
    So in my judgment, only by addressing these broader 
considerations of a peace treaty to replace the armistice, 
economic and energy assistance, and diplomatic relations do we 
have a prospect of getting at what remains and will remain our 
central and abiding concern which is the North Korean nuclear 
problem. But I think rather than simply focusing on that and 
trying to identify it and to try to resolve it in and of 
itself, which has not proven to be very feasible over the last 
several years, I think we would be much better off looking for 
a broader focus. And I think that the prior agreement of 
September 2005 provides the seed for such a broader agreement.
    And with that, Mr. Chairman, I will conclude my remarks.
    The Chairman. Thank you very much.
    Ambassador DeTrani.

 STATEMENT OF HON. JOSEPH DeTRANI, PRESIDENT, INTELLIGENCE AND 
           NATIONAL SECURITY ALLIANCE, ARLINGTON, VA

    Ambassador DeTrani. Mr. Chairman, Senator Corker, members, 
thank you for the invitation.
    My statement is on the record. Let me just offer a few 
comments.
    I certainly agree with Ambassador Bosworth. 
Denuclearization is the name of the game with North Korea. 
Permitting North Korea to sustain their program, maintain that 
program and, as we see it, enhance their program with 
additional nuclear weapons, not only through plutonium but 
through uranium, would be a destabilizing factor for the 
region. Other countries will be looking to acquire similar 
capabilities--Senator Rubio asked that question, and I think it 
is a fair question. We are talking about the potential for a 
nuclear arms race. We are also talking about the potential for 
nuclear terrorism, and others who want to get their hands on 
nuclear materiels and nuclear devices.
    In 2002, we confronted the North Koreans with their uranium 
enrichment program. It was a clandestine uranium enrichment 
program. They denied having that program. In 2010, they 
admitted to the program. The same gentleman who was mentioned 
this morning, Dr. Sig Hecker, was introduced to a facility at 
Yongbyon where they had 2,000, they said, functioning and 
operating centrifuges. As Dr. Hecker said at that time, this 
was a state-of-the-art facility. The assessment here is that 
North Korea was, and is, pursuing a uranium enrichment program 
to complement their plutonium program, all for nuclear weapons 
purposes. That is point one.
    Point two--and I agree totally with Ambassador Bosworth--
the September 2005 joint statement is a seminal statement. It 
speaks to a commitment that Kim Jong-il, Kim Jong-un's father, 
committed to where he said even in Beijing he commits to 
denuclearization. And that 2005 joint statement says very 
clearly that in exchange for economic assistance, security 
assurances, ultimately diplomatic relations when they address 
the illicit activity issues of counterfeiting our currency, 
counterfeiting pharmaceuticals, counterfeiting cigarettes, and 
trafficking in methamphetamine, when there is transparency and 
progress on the human rights issues, then we would talk about 
diplomatic relations. So it was not a sine qua non that with 
denuclearization comes normalization. No. We need 
denuclearization and that is a process toward normalization. 
But in that process, they get all those other aspects to 
economic benefits, and hopefully that would be enough of an 
inducement. And the North Koreans signed up to the 2005 joint 
statement.
    Also in the 2005 joint statement is the provision of a 
light water reactor. When North Korea comes back to the NPT as 
a nonnuclear weapons state, because as North Korea said, they 
have a right to a civil nuclear program--and that is in there. 
And that was it.
    And that fell apart because on the same day, the 19th of 
September, the North Koreans were offended by the fact that we 
had Banco Delta Asia. And that was a question asked this 
morning also. Banco Delta Asia--the predicate there was the 
Patriot Act, section 311, the predicate being money laundering. 
And North Koreans, using the Banco Delta Asia, were laundering 
their money. The Macao authorities retained $25 million of the 
money that North Korea had in this bank until the bank was in 
compliance with U.S. law and regulations.
    Eventually the bank was in compliance. The money was 
returned to North Korea and I might add that it was returned 
through our own banking system, our financial institutions, 
because the North Koreans insisted at that time they wanted to 
get into the international financial market and they wanted 
legitimacy.
    But that got us back on the path to denuclearization. That 
was what the game was all about: denuclearization. We 
eventually took them off the list of state sponsors of 
terrorism, and that was to be in response to North Korea 
committing to a verification regime, that moves us toward 
comprehensive, verifiable, irreversible dismantlement of all 
their nuclear programs. They refused to sign a verification 
protocol, and that led to the unraveling of the September 2005 
joint statement.
    And that is unfortunate; it has gone downhill ever since: 
the 2006 and 2009 nuclear tests and missile launches, what we 
have just seen in 2012, and now what we have just seen last 
month in February with the third nuclear test. So North Korea 
is enhancing their nuclear capabilities and enhancing their 
missile capabilities.
    The one point I will put on the table is that in April 
2003, China brought North Korea to the table after they held 
back on some fuel that went into North Korea; it certainly was 
a message to North Korea to come, we want you at the table. In 
April 2003, China brought the United States and the North 
Koreans together, with China in the chair, and that was the 
beginning of the six-party process.
    My personal view is China can do the same thing now. We 
bring South Korea into that process and sit down with North 
Korea and say, ``What are you doing?'' Is Kim Jong-un as 
committed to denuclearization and the joint statement as his 
father was? And get it on the record and address it and 
determine if there is any viability in the six-party process to 
go back to the September 2005 joint statement. I think that is 
a process. I think that is a meaningful one.
    And I might add, as my last comment, that I was one of the 
few in early 2012 who was guardedly optimistic because I saw 
some personnel moves being made by Kim Jong-un coming into 
power. He replaced his Minister of Defense. He replaced the 
KPA, the chief of staff; he put a party officer who was 
overseeing the military as the director of the general 
political department; he brought his uncle into a very high 
position, so there was a momentum. And that all fell apart. 
After the Leap Day Agreement, they launched missiles and they 
have had a nuclear test. That has come to this position right 
now where we are at a stalemate, a very dangerous one.
    And I think the Chinese now can really move this process 
forward, get us off the dime, get North Korea to the table, and 
get some momentum going here rather than continued escalation 
and a potential for confrontation.
    [The prepared statement of Ambassador DeTrani follows:]

           Prepared Statement of Ambassador Joseph R. DeTrani

    From 2003 to 2006 I was the Special Envoy for Six-Party Talks (6PT) 
with North Korea and the U.S. Representative to the Korea Energy 
Development Organization (KEDO). For the following 4 years I was the 
North Korea Mission Manager with the ODNI; and from 2010 to 2012, I was 
the Director of the National Counterproliferation Center. Thus for the 
past 10 years, I have been intimately involved with developments in 
North Korea.
    In 2004, during one of the first bilateral meetings we had with 
North Korea, during a plenary session of the 6PT in Beijing, the North 
Korean representative stated that if the 6PT process was unable to 
produce an acceptable agreement, North Korea would build more nuclear 
weapons, test these nuclear weapons and consider selling nuclear 
technology. We stated clearly that there would be severe consequences 
if North Korea pursued such an agenda. In this and subsequent bilateral 
meetings, during scheduled plenary sessions, the North Korean 
representative often stated that the United States should accept North 
Korea as a nuclear weapons state, noting that North Korea would be a 
responsible nuclear weapons state. The North Korean representative was 
told that U.S. policy was clear: complete, verifiable, irreversible 
dismantlement (CVID) of North Korea's nuclear programs was and will 
always be U.S. policy. During these bilateral sessions, we told the 
North Korean representative that comprehensive denuclearization would 
permit North Korea to receive economic assistance and security 
assurances, and once North Korea ceased its illicit activities--
counterfeiting the U.S. $100 bill, counterfeiting cigarettes and 
pharmaceuticals, trafficking in methamphetamines--and started to 
address its human rights violations in a transparent manner, diplomatic 
relations would be possible.
    With this as background, it's clear that there has been no progress 
in resolving North Korea's nuclear issue. In September 2005, there was 
hope that these issues with North Korea could be resolved, when the six 
countries agreed to a Joint Statement committing North Korea to 
comprehensive denuclearization in exchange for security assurances; 
economic assistance; and when North Korea returned to the NPT as a 
nonnuclear weapons state, the discussion of the provision of a light 
water reactor. Kim Jong-il had personally endorsed this agreement and 
on numerous occasions, to include during a visit to Beijing, stated his 
willingness to dismantle North Korea's nuclear programs. This optimism 
was dashed, however, when North Korea refused to commit to a written 
verification protocol to monitor North Korea's nuclear dismantlement 
efforts, after the United States removed North Korea from the list of 
state sponsors of terrorism.
    Since the beginning of the 6PT process in 2003, North Korea has 
conducted three nuclear tests and four long-range ballistic missile 
launches, all in violation of U.N. Security Council resolutions. Prior 
to the 6PT process, starting in the mid-1990s, North Korea embarked on 
a clandestine uranium enrichment program, in violation of NPT 
obligations and counter to the intent and spirit of the 1994 Agreed 
Framework. North Korea had denied having a uranium enrichment program 
but in 2010 they permitted a visiting U.S. scientist to visit a 
sophisticated uranium enrichment facility in Yongbyon. Although North 
Korea maintained that their uranium enrichment program was for civilian 
purposes and fuel for the light water reactor they were building, the 
U.S. assessment was that this facility and other nondisclosed uranium 
enrichment facilities in North Korea were for the manufacture of highly 
enriched uranium (HEU), for nuclear weapons. This permitted North Korea 
to have two paths to fabricating nuclear weapons--Plutonium and HEU.
    In addition to enhancing their long-range missile capabilities and 
their nuclear weapons programs, North Korea proliferated nuclear 
technology when they helped Syria build a nuclear weapons plutonium 
facility, similar to their 5 megawatt reactor in Yongbyon. This 
clandestine program started (ca. 1997) in Al Kibar, Syria. In 2007, 
just prior to going operational, Israel bombed and destroyed the 
facility. Additionally, North Korea has sold missiles and missile 
technology to Iran, Syria, Libya and any other country willing to buy 
their missiles.
    Given North Korea's successful long-range missile launch in 
December 2012 
that put a small satellite in orbit, and the February 2013 nuclear test 
that was larger than two previous tests, it appears that North Korea's 
objective is to fabricate smaller nuclear weapons that eventually can 
be mated to ballistic missiles that could reach the continental United 
States.
    The three U.N. Security Council resolutions sanctioning North Korea 
for their nuclear tests and missile launches are causing considerable 
pain to the leadership in North Korea. The North Korean economy is 
barely functioning, with Pyongyang dependent on China for trade, fuel, 
and food assistance needed to sustain the government. Despite North 
Korea's significant economic problems, the Pyongyang government 
continues to spend billions of dollars on their nuclear and missile 
programs, under the banner of the ``military first'' policy.
    If North Korea refuses to return to the 6PT and refuses to 
denuclearize, while enhancing their nuclear weapons and missile 
capabilities, other countries in east Asia most likely will consider 
having their own nuclear weapons capabilities. Indeed, the biggest 
threat globally, if North Korea retains its nuclear weapons, is nuclear 
proliferation. The possibility that nuclear weapons and/or nuclear 
materials is obtained by a rogue state or nonstate actors is of great 
concern. This message has been passed to the leadership in Pyongyang on 
numerous occasions.
    Hopefully, China can help to convince the leadership in Pyongyang 
that the current escalatory path North Korea is pursuing will be 
disastrous for North Korea, the region and the international community. 
A potential nuclear arms race with the possibility of nuclear materials 
being acquired by terrorists and others will make the region and the 
world less secure. China is an ally of a North Korea that needs China's 
economic assistance. With the new leadership in Beijing, it's possible 
China will be able to convince Kim Jong-un to return to the 6PT and 
commit to eventual denuclearization, in line with the September 2005 
Joint Statement. Kim Jong-il made this commitment. Hopefully, Kim Jong-
un will.
    Indeed, when Kim Jong-un succeeded his father last year, there was 
hope that this young leader would move North Korea in a positive 
direction and pursue denuclearization in return for international 
legitimacy and economic and security assurances. His first few months 
in power gave a number of us some optimism that the young Kim would 
move cautiously toward economic and political reform. He replaced many 
of the hard-liners in the government and appointed a Korean People's 
Party official as the Army's Chief of the General Political Department, 
thus installing a Party official to oversee the military. Other 
appointments, like the elevation of his Uncle to a more prominent 
position in government, gave some of us a sense of optimism; a sense 
that realists would replace the hard-liners. This appearance of 
liberalization was short-lived, however, when North Korea launched a 
TD-2 missile in April 2012, despite the February 29, 2012, Leap Day 
agreement with the United States that committed North Korea to a 
moratorium on missile launches and nuclear tests in return for 
nutritional assistance. U.N. sanctions then followed, with North Korea 
defiantly launching another missile in December 2012 that succeeded in 
putting a satellite in orbit. This also resulted in additional 
sanctions, with North Korea then conducting its third nuclear test last 
month. With this considerable escalation were vitriolic statements from 
Pyongyang stating that North Korea would never give up its nuclear 
weapons, claiming the United States maintains a hostile policy toward 
North Korea. It is likely North Korea will launch additional missiles 
and conduct additional nuclear tests, working toward smaller nuclear 
weapons with the hope of eventually being able to mate these nuclear 
weapons to missiles that can reach the United States. In short, North 
Korea has escalated tension significantly over the last year.
    A negotiated settlement of North Korea's nuclear programs is 
desirable and necessary. My personal view is that China should do what 
they did in April 2003 when they convened an emergency meeting of the 
United States, North Korea, and China to discuss the tension in the 
region and arrange for the 6PT process to be established, to defuse 
tension and hopefully resolve the extant issues. It is possible that 
China could convene another emergency meeting with North Korea and the 
United States, that also includes South Korea. Such a meeting possibly 
could determine if North Korea is serious about eventual 
denuclearization for economic assistance and security assurances, 
pursuant to the September 2005 Joint Statement, and if reconvening the 
6PT process is viable.

    The Chairman. Thank you.
    Ambassador Joseph.

 STATEMENT OF HON. ROBERT G. JOSEPH, SENIOR SCHOLAR, NATIONAL 
          INSTITUTE FOR PUBLIC POLICY, WASHINGTON, DC

    Ambassador Joseph. Mr. Chairman, Senator Corker, thank you 
very much for the invitation to be here today and to testify. I 
will try to be very brief in summarizing my statement.
    While one can argue and I think somewhat legitimately that 
U.S. policies have succeeded in slowing the North's progress 
and in galvanizing international support, the successes that we 
have reached, that we have achieved are at best tactical. As 
President John Adams once said, the facts are stubborn things. 
And today North Korea has declared itself to be a nuclear power 
and seems absolutely determined and well on its way to acquire 
the means to hold American cities hostage to their long-range 
missiles and nuclear weapons.
    Viewing policy from a nonproliferation perspective, I see a 
long pattern of failed policies that must be changed. This 
change should be based on experience, not on hope, and it is on 
this basis that I offer the following lessons learned from my 
own experience.
    One, North Korea will only agree to abandon its missile and 
nuclear programs if it is judged essential for regime survival. 
The DPRK places the highest values on these capabilities. These 
are a deterrent against attack. These are a means of preventing 
intervention such as occurred in Libya. Missile and nuclear 
programs are important to intimidate neighbors, to build 
prestige at home, to earn hard currency. In addition, the North 
has successfully used its nuclear program to attract 
inducements from those who seek its elimination.
    Two, the prospect for a negotiated solution should be seen 
as a long shot. At times, previous administrations have thought 
they were all but there, but it never happened whether it was 
in 1992, in 1994, or in 2005. Pyongyang would formally agree to 
abandon its nuclear program only to violate its commitments 
each time. And this pattern of failed negotiations, followed by 
violations of obligations, provocations, and the offering of 
more inducements in turn by the United States and others to get 
North Korea back to the negotiating table, has been the main 
characteristic of U.S. policy for two decades.
    The United States and others have and will, no doubt, 
continue to apply sanctions on the North, but imposing economic 
hardships and threatening isolation have not altered the 
regime's behavior. In part, this is because the DPRK cares 
little whether its people starve. In part, it is because regime 
stability is, in fact, dependent on isolation. In part, it is 
because China has continued to keep open a lifeline of 
assistance to the North no matter how blatant or how lethal its 
activities. And in part, it is because of our own practice of 
releasing pressure on North Korea in exchange for empty 
promises.
    Three, the record of failed negotiations is not an argument 
that diplomacy should be abandoned. But negotiations by 
themselves is not a strategy. A comprehensive approach that 
integrates all tools of statecraft is required if negotiations 
are to have any chance of success. These tools, financial, 
intelligence, interdiction, law enforcement, and diplomacy--and 
we have talked about them all this morning--must be brought 
together to bring sustained pressure on the regime. Pyongyang 
must be faced with a choice: it can retain its missile and 
nuclear programs or it pays a high price. It must no longer be 
allowed to use these programs as a means to extract concessions 
that only serve to strengthen the regime and perpetuate the 
missile and nuclear threat. As for diplomacy, our main focus 
should be on China, the principal obstacle to bringing 
effective pressure on North Korea.
    Four, the promotion of human rights, while part of official 
U.S. talking points for years, has not been a significant 
element of U.S. strategy. It should be as it was in the Reagan 
administration in its dealings with the Soviet Union. Exposing 
the domestic brutality of the regime is both the moral course 
and potentially an effective means to influence DPRK leaders.
    Five, because North Korea is likely to retain its missile 
and nuclear capabilities, the United States must ensure that it 
can deter and defend against the threat. This requires missile 
defenses that protect allies and the U.S. homeland from attack. 
Failing to deploy defenses that keep pace with the growing 
threat, whether as a means to encourage Russian participation 
in offensive arms reductions or as a way to reduce the budget, 
will only undermine deterrence and increase the risk of 
destruction to the United States.
    Similarly, we must continue to deploy a credible nuclear 
force that can meet the spectrum of deterrence requirements and 
provide solid assurance to allies. Going to lower and lower 
levels of forces in pursuit of a nuclear-free world is likely 
only to embolden our adversaries and shake the confidence of 
our friends and allies. And if our allies doubt our capacity or 
will to meet their security commitments, the outcome will be 
the reverse of the goal sought by global zero proponents: more 
rather than fewer nuclear weapons.
    Six and finally, the last lesson is that the United States 
must lead. At times we have failed to show the required 
leadership, avoiding confrontation with the DPRK on a number of 
its most harmful activities, including its missile and nuclear 
proliferation. This absence of leadership affects not only the 
calculations in Pyongyang but also of Tehran where another 
oppressive regime is seeking missile and nuclear capabilities 
to undermine U.S. interests in a region of vital interest.
    Iran does watch closely United States policy and United 
States resolve to reverse what three Presidents, President 
Clinton, President Bush, and now President Obama, have declared 
to be unacceptable: a nuclear-armed North Korea. What they have 
seen so far has certainly not dissuaded them.
    Thank you again for the invitation of being here today. I 
look forward to your questions.
    [The prepared statement of Ambassador Joseph follows:]

               Prepared Statement of Dr. Robert G. Joseph

    Chairman Menendez, Senator Corker, other distinguished members 
present today, thank you for the invitation to testify before the 
committee on the subject of U.S. policy toward North Korea. It is a 
privilege for me to appear again before this committee and provide my 
views and recommendations on the DPRK's missile and nuclear programs.
    For the past 20 years, I have worked both in and out of government 
on fashioning and implementing policies to meet the threat that North 
Korea poses to the United States, to our friends and allies in the 
region, and to the broader international community. The nature and 
scale of this threat are most clearly reflected in Pyongyang's 
determined pursuit of longer range ballistic missiles and nuclear 
weapons. The DPRK satellite launch this past December, which involved 
much of the same technology as a missile test, and last month's nuclear 
test demonstrate the failure of U.S. policy approaches across three 
Presidential administrations. President Clinton, President Bush, and 
now President Obama, have all declared a nuclear-armed North Korea to 
be unacceptable. But all have watched as the North has developed and 
expanded these very capabilities.
    While some may argue that U.S. policies have been successful in 
slowing the North's progress and in galvanizing support within the 
broader international community, such as witnessed in the adoption of 
U.N. Security Council resolutions imposing sanctions on the Kim regime, 
these successes are at best tactical. Today, North Korea has declared 
itself to be a nuclear power and appears determined to acquire the 
means to hold hostage American cities and American lives. Its 
neighbors, especially our allies Japan and South Korea, are currently 
within range of its short and medium range missiles, as are U.S. troops 
and bases in those countries. And the regime's history of selling both 
missile and nuclear technology, including to Iran and Syria, make the 
DPRK the number one proliferation threat of our time.
    For these reasons, as one who assesses the strategic challenge from 
North Korea from the perspective of non- and counter-proliferation, I 
see a long-held pattern of failed policies that must be changed. The 
North Korea Nonproliferation and Accountability Act (S. 298), recently 
passed by the Senate, is a positive step. But more than a comprehensive 
report is necessary. The Obama administration should alter the familiar 
but futile course that has been followed by it and its two 
predecessors, Democrat and Republican alike. A new comprehensive 
strategy is required, based on experience not hope.
    It is in this context that I offer the following lessons learned 
for your consideration.
    (1) The Kim regime, now in its third generation, will agree to 
abandon its missile and nuclear programs only if it judges that such a 
move is essential for its survival. The DPRK places the highest value 
on its missile and nuclear capabilities, perhaps second only to the 
survival of the regime and keeping the elites loyal to sustain it. 
Nuclear weapons and ballistic missiles are seen as a deterrent to 
attack and as a means of preventing external interventions as occurred 
in Libya. Recent comments in the state-controlled media about the fate 
of Colonel Qadaffi after giving up his nuclear program reflect both the 
insecurities of the regime and its determination to keep its nuclear 
weapons. Missile and nuclear capabilities are also seen as important 
both to intimidate and coerce adversaries and to engender internal 
prestige at home.
    The missile and nuclear programs are also a means of earning hard 
currency for a country that is economically bankrupt, as observed in 
sales of SCUD missiles to any customer with the ability to pay cash and 
the provision of a plutonium generating reactor to Syria. And, in both 
bilateral and multilateral negotiations, the North has used the nuclear 
program as a means of extracting inducements from the United States and 
others who seek its elimination, from heavy fuel oil to food 
assistance.
    (2) Following from the first lesson, the prospect for a negotiated 
solution eliminating the North's missile and nuclear programs should be 
seen as a long shot. At times, previous administrations thought they 
were close to achieving this outcome, but it never happened. In the 
1992 North-South Denuclearization Joint Declaration, in the 1994 Agreed 
Framework, and in the 2005 Six-Party Joint Statement, Pyongyang 
formally agreed to abandon its nuclear program, only to violate its 
obligations each time. In between agreements, expectations would rise 
and fall as the DPRK would pocket each successive concession, always 
demanding more.
    This pattern of failed negotiations, each time followed by 
violations of commitments, provocations, and the offering of more 
inducements to get North Korea to return to the negotiating table, has 
been for two decades the main characteristic of U.S. policy toward 
North Korea. While the United States and others have at times applied 
sanctions on the North, such as after its missile and nuclear tests, 
these sanctions have not dissuaded the Kim leadership. Imposing 
economic hardships and threatening further isolation of the regime have 
not altered its behavior. In part, this is because the regime cares 
little whether all of its people are fed or starve, and prefers to keep 
them dependent on the state for their very existence. In part, it is 
because regime stability is dependent on its isolation. And in part, it 
is because China has undercut the impact of sanctions and has continued 
to keep open a lifeline of assistance to the North, no matter how 
blatant or lethal its actions.
    (3) The record of failed negotiations is not an argument that 
diplomacy is hopeless, or that negotiations should be abandoned. But 
diplomacy as practiced in the past and present context does not 
constitute a strategy, even though it has most often masqueraded as 
such. A comprehensive approach that integrates all tools of statecraft 
is required if negotiations are to have any chance of succeeding and, 
alternatively, if we are going to be prepared to meet the threat if the 
DPRK continues its missile and nuclear proliferation activities.
    Without such a change in U.S. policy, negotiations will not 
succeed. Specifically, Pyongyang must be faced with a choice: it can 
retain its missile and nuclear programs or pay a high price. It must no 
longer be allowed to use these programs as a means to extract 
concessions that only serve to strengthen the regime and perpetuate the 
missile and nuclear threat.
    Pressure can have an effect on the regime's calculations. From 2001 
through 2006, the United States employed a series of 
counterproliferation tools, including interdiction through the 
Proliferation Security Initiative, freezing regime funds abroad, and 
curtailing its illicit activities, such as cutting off its customer 
base for missiles and cooperating with other countries to end its drug 
and counterfeiting activities. These tools--financial, intelligence, 
law enforcement and diplomatic--must be brought together as part of a 
broader strategy for countering the North Korean threat. As for 
diplomacy, we need to move beyond diplomacy focused primarily on 
negotiating tactics or on the ``carrots'' for the next round of six-
party or bilateral discussions. The main diplomatic focus should be on 
China, the principal obstacle to bringing effective pressure on the 
North.
    (4) The promotion of human rights should be a major element of the 
U.S. strategy toward North Korea, as it was in the Reagan 
administration in its dealings with the Soviet Union. Exposing the 
North's brutality toward its own citizens has not been a priority 
component of U.S. policy. In fact, concerns about how such exposure 
might affect the prospects for engagement with the regime have worked 
to place human rights atrocities in a separate box which is mostly 
neglected if seen as complicating higher order diplomacy.
    In North Korea, civil and religious freedoms do not exist. 
Political prison camps are reported to hold as many as 200,000 who have 
offended the regime and who suffer the greatest depravation, including 
summary executions and starvation. As with other totalitarian 
governments that lack moral legitimacy, the greatest fear of the rulers 
in Pyongyang is their own people, the foremost victims of their 
economic malfeasance and repression. Exposing the domestic crimes of 
the regime is both the moral course and, potentially, an effective 
means to influence DPRK leaders. Shining the spotlight on the darker 
corners of North Korea may also help strengthen international resolve 
to deal effectively with Pyongyang. The decision of the new Park 
government in Seoul to support a U.N. Commission of Inquiry to 
investigate rights abuses in the North is a welcome move that should 
facilitate giving more prominence to human rights issues by the United 
States.
    (5) Because North Korea is likely to retain and expand its missile 
and nuclear capabilities, the United States must act to ensure that it 
can deter and defend against the threat. This requires missile defenses 
that can protect allies and the U.S. homeland from attack. Failing to 
deploy defenses that keep pace with the growing threat--whether as a 
means to encourage Russian participation in another round of offensive 
arms reductions or as a way to reduce the budget--will undermine 
deterrence and increase the risk of potentially immense destruction to 
the United States if deterrence fails. Yet, even as the North Korean 
threat grows, the Obama administration shows little interest in 
strengthening U.S. national missile defenses.
    Similarly, the United States must continue to deploy a reliable and 
credible nuclear force that can meet the full spectrum of deterrence 
requirements and provide solid assurance to neighboring allies. Going 
to lower and lower levels of forces in the pursuit of a nuclear free 
world is likely to embolden our adversaries and shake the confidence of 
our friends. If U.S. allies doubt our capability or resolve to meet our 
security commitments in northeast Asia and elsewhere, the outcome will 
be the exact reverse of the stated goal of the proponents of global 
zero and minimal deterrence: more rather than less proliferation of 
nuclear weapons.
    (6) The final lesson that I have learned related to U.S. North 
Korea policy is that the United States must lead if it is to succeed, 
either in negotiations, or in ensuring the needed capabilities for 
deterrence and defense, or in preventing the further spread of the 
North's deadly weapons of mass destruction. At times, the United States 
has failed to show the required leadership, avoiding confrontation with 
the DPRK on a number of its most harmful activities, including its 
missile and nuclear proliferation. This absence of leadership is 
recognized not just by the rulers in Pyongyang but by those in Teheran 
who also seek to acquire missile and nuclear capabilities to intimidate 
America's friends and undermine U.S. interests in another region of 
vital interest.
    Iran, perhaps an even greater strategic threat than North Korea, 
watches closely U.S. policy and U.S. resolve in reversing what three 
Presidents have declared to be unacceptable: a nuclear-armed North 
Korea. What they have seen thus far has not dissuaded them from 
continuing down their path of nuclear proliferation.
    Thank you again for the honor of appearing before the committee.

    The Chairman. Thank you very much. Thank you all for your 
testimony.
    Let us start and I would like to have an interplay between 
Ambassador Bosworth and DeTrani on this. If the 2005 joint 
statement was the best pathway toward achieving our goals--and, 
Ambassador DeTrani, you suggested that that issue, the Patriot 
Act sanctions of the bank and the $25 million that ultimately 
flowed back to North Korea was a disruptive element in pursuing 
the 2005 process. Clearly in any such process, there are going 
to be bumps along the road. Does that not really call into 
question how serious North Korea was even in this more expanded 
process of 2005 to achieving its goals? I would like both of 
your observations on that because it sounds to me that 
especially when the money ultimately flowed back to North 
Korea, that the process would have resumed again if there was a 
real desire to pursue it.
    Ambassador DeTrani. No, Mr. Chairman. You are absolutely 
right. My point on the 2005 and the Banco Delta Asia was that 
we told the North Koreans very clearly that illicit activities 
would not be permitted. Diplomacy is one thing, and that is the 
2005 joint statement on denuclearization. They continued to 
counterfeit our currency. They continued to deal with the 
methamphetamine and traffic in methamphetamine and counterfeit 
pharmaceuticals and so forth. That is law enforcement, and we 
told them we would continue to go after them on that. So they 
should not marry that up to diplomacy. These are two separate 
entities. And in fact, it was done on the same day, the 19th of 
September, when the Federal Register put out that the Banco 
Delta Asia was being sanctioned because of the predicate of 
money laundering based on section 311 of the Patriot Act. That 
was our message to the North Koreans; they cannot link the two 
and try to get us to go soft on illicit and human rights and 
put out denuclearization as the carrot for us to go on.
    The Chairman. Evidently, while that may have been our 
message, they did not accept that message as a means to move 
forward.
    Ambassador DeTrani. They protested and they walked away 
from the table for about 8 months until that money was 
returned. But, of course, the Banco Delta Asia was in 
compliance. So they were permitted legally to return that 
money.
    The Chairman. Ambassador Bosworth, if that is the case it 
is so easily disrupted, how do we see that as the pathway 
forward?
    Ambassador Bosworth. It is easily disrupted. As we have 
seen, North Korea's adherence to any of these agreements is 
tenuous at best, and they have to be continually reassured that 
they are not giving up their one piece of negotiating leverage 
in return for empty promises.
    So I think it is very important, as we try to move forward, 
that North Korea come away with some conviction that it is not 
just denuclearization that we are going to make progress on. We 
are also going to try to make progress on a peace treaty to 
replace the armistice. And that I think is a very high priority 
from a North Korean point of view, as well, of course, as the 
diplomatic relations and economic assistance and energy 
assistance.
    But please understand me. I am not saying that this is 
somehow a magic solution to the problem, but it is the one 
piece that we still have that they have agreed to and has 
constituted a foundation for trying to move forward. And they 
have not disavowed it in that sense.
    The Chairman. Ambassador DeTrani, there are some press 
reports that suggest you have been on two secret missions to 
North Korea. And I am wondering if you could tell us what was 
the temperature of the interlocutors that you met with.
    Ambassador DeTrani. Mr. Chairman, with due respect, sir, 
those reports have been addressed to the Senate and the House 
intelligence oversight committees, and I am really not at 
liberty to be discussing it here.
    The Chairman. So you have discussed those with the House 
and Senate----
    Ambassador DeTrani. The House and Senate intelligence 
oversight committees have been addressed. These issues have 
been addressed with these committees.
    The Chairman. All right. So we will pursue it with the 
Intelligence Committee.
    Let me ask you with reference to your comment that the 
Chinese were the ones who got the North Koreans to the table in 
2005 as a result of tweaking them with some of their 
assistance. What was the calculus at that moment that made them 
do that, and how do we get them to make that calculus now?
    Ambassador DeTrani. Sir, April 2003 was a very tense time. 
North Korea said they were reprocessing the spent fuel rods. 
They had pulled out of the NPT. They had asked the IAEA 
monitors to leave the country. It was very tense at that 
moment. Again, they left the NPT and asked the monitors to 
leave in January 2003. And then in April, they announced--even 
before April--in March they announced they were reprocessing 
the spent fuel rods that were in the cooling ponds at Yongbyon 
with the indication that they were going to be reprocessed for 
the purpose of weaponization. And it was tense. And the Chinese 
asked that the North Koreans come to the table with the United 
States and Beijing to speak about a way forward, to diffuse 
this very tense situation.
    The reporting is that a number of days prior to those 
meetings, there were a few shipments of petroleum not sent to 
North Korea; shipments were not as extensive as they were in 
the past between the two countries. That was the reporting at 
the time. And the sense of some analysts at the time was that 
it could have been a message from Beijing to the DPRK that they 
should comply, and if they are being asked to sit at the table, 
they should sit at the table.
    The Chairman. All right.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank each of you for your testimony and for your past 
efforts regarding this issue.
    It does not sound particularly hopeful to me, as I listen 
to each of you, and I think you would agree with that.
    Let me just ask this question. We had some discussions here 
about our Libya intervention. Here we had a person that was 
equally not a good person. We had a person who had done away 
with weapons of mass destruction. We had a person that was 
working with us with al-Qaeda, and we took him out when they 
did not have weapons of mass destruction.
    What kind of learning moment was that for, do you think, 
the leadership of North Korea?
    Ambassador Bosworth. Well, I suspect they took away lessons 
from that that were inevitable and that are going to complicate 
our policymaking with them for the foreseeable future. The most 
obvious lesson would be if people think you have weapons of 
mass destruction and then you take action to show that you do 
not have weapons of mass destruction, this gives your 
adversaries room for maneuver that they might not have had 
previously. And there are, I think, legitimate reports that the 
North Koreans came away from both Iraq and Libya with the 
conviction that if these two countries had, in fact, had 
weapons of mass destruction, that what happened to them would 
not have happened to them.
    Senator Corker. Any other comments? There was a point I was 
trying to make at the time, but go ahead.
    Ambassador DeTrani. Sir, I would agree. I think that the 
message in Pyongyang is that they saw what happened to Qaddafi 
and Saddam and so forth. It does not mean it is not doable in 
North Korea; that we will not succeed with denuclearization, 
but indeed, that fortified the hard-liners who were saying we 
just do not want to move down this path. There are those hard-
liners in Pyongyang who are committed to retaining those 
nuclear weapons.
    Senator Corker. So I would just listen to earlier 
statements. Again, I do not see any real--I cannot imagine why 
North Korea would ever consider not going down the path they 
are going because of recent experiences. And it does not sound 
like to me that we have much of a way to deter that. I have not 
heard anybody speak to how we really do that other than China. 
It sounds like they are the only ones that have any cards that 
are worth playing here other than something that I think our 
country really does not want to engage in at this time. So it 
seems to me that the entire issue around North Korea really is 
not us but China. And I wonder if you might speak to that.
    Ambassador DeTrani. Sir, I would just comment. I look to my 
colleagues, but it is a failed economy. I mean, North Korea, 
now with the additional sanctions--there are three sanctions in 
play now with this morning's--there are four sanctions, the 
U.N. sanctions. There are executive orders from our Treasury 
Department. They are biting and they have consequences. One 
would have to assume that when the leadership realizes they are 
not getting the funds necessary to sustain their lifestyle, the 
pressure will be at an even higher level even while provinces 
are not really seeing many benefits because of the two-state 
system. It is Pyongyang and the rest of the country. Once 
Pyongyang feels they are under siege and they are having 
problems sustaining it, I would imagine there would be some 
pressure on the leadership to make some changes to take some of 
that pressure off. And to live as a pariah state, especially if 
China is not happy with this pariah state, although they are 
allied with it, one has to wonder how they could survive in the 
near to midterm.
    Senator Corker. Ambassador.
    Ambassador Joseph. Senator, I think that is a very 
important question. There is only one time in my experience in 
which I observed the Chinese on the cusp of making a strategic 
decision to change its relationship with North Korea, and that 
was in October 2006 after the first test. The first nuclear 
test was a profound shock. It was a profound shock in the 
region and it was internationally, given the risk to the 
nonproliferation regime itself.
    Within a couple days of that test, Condi Rice was asked to 
go the region and asked me to go with her. We stopped in Japan. 
And in Japan, the focus of Prime Minister Abe, Foreign Minister 
Aso, was on the reassurance of the Japanese public that the 
United States would stand by its security commitments and 
explicitly restate its nuclear guarantee to Japan.
    What is interesting is when we got to Beijing, the first 
thing the Chinese did was thank us for reaffirming our security 
and our nuclear guarantees to Japan. What China was concerned 
about was the nuclear dynamic. It was the dynamic of the 
possibility of Japan and maybe South Korea going nuclear in 
that context. That was the only time that there seemed to be a 
prospect, a window of opportunity for getting China to change 
its policy. This is the first time that China went along with 
the U.N. Security Council resolution which had real sanctions, 
1718. China offered to work with us to implement those 
sanctions, including denying the luxury goods for the elites of 
North Korea.
    But it was not too long after that that China went right 
back to its comfort zone and did not challenge the North Korean 
provocations. And it did that in the context of the United 
States and others releasing pressure on North Korea. Instead of 
increasing pressure, we released pressure. And we did that 
because of the false prospect of negotiations, the false 
promise that North Korea would come back to the negotiating 
table. And it did. And it did only to start, once again, the 
cycle of no negotiations, provocations, concessions, and 
failure to live up to its obligations.
    I do not know what it is going to take to get China to 
change its assessment. China has many reasons for supporting 
North Korea. I mean, it is concerned about what happens with 
unification. It is concerned about refugees coming over the 
border.
    It is going to take a real concerted effort, and quite 
frankly, it is going to take pressure on the part of the United 
States on China to change. More dialogue about the six-party 
talks is not going to do it. We are going to have to decide 
whether this is important enough to us that we actually put 
some pressure on China to change its policy.
    But even if China changes its policy, I think that will be 
a very important step toward getting North Korea to alter 
course, but that is not enough either. We need a comprehensive 
strategy to deal with this.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Ambassador Joseph, let me just follow up on that very 
important point. I asked a version of this question to Special 
Representative Davies.
    I tend to agree that possibly the only thing that brings 
the Chinese to the table is the fear that there really does 
become a nuclear arms race in the region. And we sort of 
cavalierly throw around the inevitability of nuclear arms races 
in the Middle East and in that sector of the world as well 
without any, I think, true understanding of all of the barriers 
that would stand in the way of that happening, particularly in 
a place where we hold a lot of cards with the other players in 
the region.
    So you maybe just answered this, but you talk about 
applying real pressure to China, but without China feeling that 
they lose control of the nuclear situation in the region, what 
cards do we have to play there?
    And I guess the second question is, Is there any chance 
that we do lose control of the nuclear capabilities of the 
region? Is there any real chance that the Japanese and the 
South Koreans do change their disposition and decide to remove 
themselves from our nuclear umbrella and develop their own 
capacities, or is that not realistic?
    Ambassador Joseph. Senator, taking your second question 
first, I think there is a chance that if we fail with North 
Korea and if we do not demonstrate through both our declaratory 
policy and our capacity in both the nuclear area, as well as in 
the missile defense area, there is a likelihood that Japan will 
overcome its long-term allergy about nuclear weapons and begin 
to hedge. South Korea also very much a concern about 
proliferation in the future if we fail--if we fail--with North 
Korea.
    In terms of what cards we have to play with China, there 
are not any easy ones. If there were easy ones, I think we 
would have played them by now. This has been going on for 20 
years. I think we have to make the assessment whether or not 
this issue--the issue of North Korea and China's continuing 
support, continuing lifeline of assistance to North Korea--is 
sufficiently important to us that we begin to put economic 
pressure on China, that we begin to call out China for its part 
in sustaining what is the most abhorrent regime I think in the 
world today. There are a number of things that we can do, but 
up until today, we have been more interested in China's role as 
a facilitator in the six-party talks. That does not get us to 
where we need to be with China.
    Senator Murphy. Let me ask sort of the same version of that 
question to the other two panelists. Do you agree that the 
thing that China fears most is the nuclear arms race, and what 
are your thoughts on whether that is a real concern?
    Ambassador Bosworth. Well, I think China is concerned about 
proliferation within the region.
    Senator Murphy. Is that their primary concern?
    Ambassador Bosworth. No. It is one of several concerns. 
They are also concerned about the stability of North Korea for 
the reasons that we spoke of earlier. They are also concerned 
about the nature of their relationship with the United States, 
and I think it has been made quite clear to them that while 
North Korea policy is not a pivot for that relationship, it is, 
nonetheless, very important to that relationship. So they have 
very many points of interest at play here.
    And I think we sometimes make the mistake of thinking that 
China is somehow a policy monolith in which problems are fed 
and then solutions come out. One of the things that I came away 
from my recent experience dealing with this problem--or 
convinced of--is that the Chinese are of various minds about 
how to deal with North Korea. There is no single view, and it 
is something that is being very much debated and addressed 
within the policy circles of North Korea, both within the 
government, within the party, and within the so-called think-
tank world. So they do not have a solution to these concerns. 
They recognize the nature of the problem. They recognize that 
it is something they have got to deal with, but they also 
understand how complicated and how many different points of 
interest in China are concerned about possible outcomes in 
North Korea. That includes the party, the military, and the 
government.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to all of the panelists for being here. I am 
sorry I missed the earlier part of the hearing but very much 
appreciate your insights into what is happening in North Korea 
now, especially you, Mr. Bosworth, and your New Hampshire 
connection through Dartmouth. So nice to welcome you here.
    Ambassador Bosworth. Thank you.
    Senator Shaheen. I wanted to follow up a little bit on the 
proliferation issues that have been raised because it seems to 
me that given the past history, given their efforts to help 
Syria build a nuclear weapons facility, that we may not know 
exactly what we do not know about what North Korea is doing 
with respect to proliferation efforts. And I just wondered how 
comfortable each of you are with where our knowledge of what is 
happening with respect to North Korea and proliferation might 
be right now and if you can elaborate on exactly what we know 
about that.
    Ambassador DeTrani. Can I just comment very briefly? And I 
will look to my colleagues. My colleagues mentioned Syria and 
al-Kibar. That was in many ways a wake-up call. That was going 
on for a number of years, and until the Israelis took it out in 
September 2007, I mean, that was almost going operational. 
Nuclear proliferation is central to the whole issue of 
denuclearization for North Korea, and that drives China and 
everyone else, but certainly China, as a neighbor and an ally. 
If there is any instability there, what would happen with the 
nuclear weapons or the fissile materiel? So proliferation--and 
of course, we know the element of--the potential for nuclear 
terrorism there. There are nonstate actors out there that want 
their hands on this.
    So this is a very central issue to why denuclearization for 
the DPRK has to be, if you will, the goal and objective. It is 
not nonproliferation. It is not arms control. It is 
denuclearization because of all of these other reasons, and 
proliferation is central to it.
    Senator Shaheen. Anything either of you would like to add 
about what we know about those efforts?
    Ambassador Bosworth. Well, I would only add, Senator, that 
as a longtime consumer of intelligence within the government, I 
have been impressed on the one hand by how hard our 
intelligence community works on North Korea, but I have also 
been impressed by what a difficult target North Korea is. And I 
think their capacity for surprise, while not limitless, is 
certainly greater than we might expect.
    Senator Shaheen. Mr. Joseph.
    Ambassador Joseph. Senator, I come at this from a 
nonproliferation perspective and that is my expertise, if I 
have expertise. And clearly, North Korea has, for decades, been 
the No. 1 proliferator. It is a serial proliferator. We know it 
from its missile sales and the transfer of missile technology 
to a number of countries. We know it from the Syria experience 
in providing a plutonium reactor to Syria. North Korea will 
sell what it has.
    I am very concerned not only about state proliferation 
relationships but also, as Ambassador DeTrani just mentioned, 
the nonstate and access through North Korea to fissile material 
and weapons. And it is, as someone said, a very hard 
intelligence problem, and we have been subject to a number of 
strategic surprises in this area. So despite knowing how hard 
the intelligence community works on this problem, I also share 
the sense that there is a lot we simply do not know and we need 
to be prepared for the worst based on North Korea's experience.
    Senator Shaheen. So you have dashed my hopes to be 
reassured.
    As we enter another round of sanctions, how can we be more 
successful at implementing those sanctions in a way that really 
has a real impact on North Korea? Because my understanding is 
that to date we have had rather sporadic success at 
implementing the sanctions.
    Ambassador Bosworth. I think we have to start with the 
realization of the reality, which is that sanctions by 
themselves are not going to solve this problem. Sanctions can 
make life even more difficult for North Korea. Sanctions can 
force North Korea to contemplate issues that they might not 
have contemplated without them. But sanctions are not the 
solution to this problem. It is part of the solution 
conceivably, but they are not the solution. Sanctions have the 
effect of making us confident that we are at least doing 
something, that we are not just sitting here passively and 
waiting for divine intervention of this problem. We are taking 
some action, but we should not, in my personal judgment, be 
under any illusions that sanctions are going to solve this 
problem.
    Ambassador DeTrani. I would look to Ambassador Joseph, and 
I do not disagree with Ambassador Bosworth.
    But I will say I think what we saw today with China, who is 
very much a part of this new U.N. Security Council resolution; 
I think it is indicative of the fact that China is also saying 
what is going on here. And I think we need to have all the 
countries coming together, whether it is a proliferation 
security initiative, whether it is going after the banking 
system, or whether it is going after their diplomats and how 
they move money and so forth, all of this is causing 
significant pain to North Korea.
    Now, is that going to be the answer? Certainly that is not 
the answer per se, but it is part of the process to telling 
North Korea they must change their behavior. They need come 
back to the table and need to commit again, recommit to 
denuclearization.
    Ambassador Joseph. Well, just to add to my colleague's 
comments with which I certainly agree, sanctions will only 
work--and I think they have limited impact--but they will only 
work in the context of a broader strategy. It is not a question 
of sanctions or our strategy or diplomacy as our strategy. We 
have got to put these various instruments together, and that 
has been lacking.
    And what also has been lacking is a sustained effort. When 
we have made a difference, when we have created pain--and I 
think the Banco Delta Asia experience is very apt here. When we 
have put pressure on the North, we have allowed that pressure 
to be released. We have done that through this false and 
fanciful promise of negotiations. Negotiations will only work 
if we apply pressure, and that is one thing we learned from the 
Libyan experience. It was not you get into negotiations, you 
release the pressure. I mean, this is negotiating 101. And yet, 
time after time, Republican and Democratic administrations, we 
have made the same fundamental mistake with North Korea. A lot 
of it is because we hope. We hope North Korea will change, and 
we ignore our experience for the sake of hope.
    Senator Shaheen. Thank you. I am out of time. I would love 
to follow up and see how that fits with what is being proposed 
on Iran, but that is a different topic.
    Thank you all.
    The Chairman. Well, thank you all for your very insightful 
comments and answers to questions on a very challenging but 
important national security and national interests issue before 
the committee and before our country.
    So with the thanks of the committee, the committee's record 
will remain open until the close of business tomorrow.
    And with that, the hearing is adjourned.
    [Whereupon, at 12:23 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Special Representative Glyn T. Davies to Questions 
                    Submitted by Senator Jeff Flake

                         china and north korea
    Question. North Korea is dependent on China for economic aid and 
diplomatic support. North Korea's cycle of provocation followed by 
cooperation, and the numerous tests of missiles and nuclear devices, 
has led to several rounds of United Nations sanctions that China has 
supported. However, China has yet to agree to more stringent economic 
measures against North Korea outside the United Nations.

  <bullet> What will it take to gain China's cooperation to rein in 
        North Korea's provocative activities?
  <bullet> The United States is working to gain China's cooperation on 
        a number of other critical international issues such as Iran's 
        nuclear weapons program and Syria's civil war. Where does North 
        Korea fit in on that list? Is it a priority? If it is not, why 
        isn't it?
  <bullet> Is China in a position to bring the North Korean regime--and 
        its nuclear weapons program--to its knees by withholding 
        assistance to it?
  <bullet> Does the Obama administration view the North Korean regime 
        as a threat to U.S. national security?

    Answer. The United States continues to work closely with China to 
address North Korea's nuclear programs and other provocations. We 
continue to concentrate our diplomatic energy on encouraging China to 
more effectively leverage its unique relationship with the DPRK and its 
role as chair of the six-party talks to achieve our common goal of 
verifiable denuclearization of the Korean Peninsula in a peaceful 
manner. The Chinese played a critical role in crafting U.N. Security 
Council Resolution 2094, which imposes new sanctions on North Korea, 
and we will continue to press China to enforce these tough new 
sanctions. We will also continue to press China to do everything 
possible to address North Korea's threats to regional peace and 
security and the global nonproliferation regime.
    While the United States is working with China to address a number 
of critical international issues, including Iran's nuclear weapons 
program and the unrest in Syria, North Korea remains a top priority in 
our policy agenda with China. Secretary Kerry has already discussed our 
concerns regarding North Korea, including after North Korea's missile 
launch and after its nuclear test, with new State Councilor Yang 
Jiechi.
    While China provides some assistance to North Korea, we are not in 
a position to speculate on the potential impact of withholding that 
assistance. Chinese officials have made clear that they are concerned 
by North Korea's destabilizing and provocative behavior, and that they 
view denuclearization of the Korean Peninsula as a critical concern.
    North Korea's recent highly provocative threats against the United 
States and its allies and its announcement that it had tested a nuclear 
device in February underscore the serious threat the DPRK's nuclear 
weapons and ballistic missile programs and proliferation activities 
pose to U.S. national security and the security of our allies. The 
United States will continue to take appropriate action to counter these 
threats.
                    u.s. disarmament and north korea

    Question. President Obama supports the denuclearization of the 
North Korean peninsula. There are some who have advocated for the 
United States to reduce its nuclear arsenal as a way of persuading 
other rogue regimes such as North Korea to give up their nuclear 
weapons as well. However, despite new reductions agreed to under the 
New START treaty, North Korea recently tested a nuclear device. During 
the hearing I asked you if reductions to the U.S. nuclear arsenal would 
persuade North Korea to give up its programs and come back to 
negotiations. Your response was that while it wouldn't have a direct 
effect on North Korea, it would have tremendous effect on the 189 
countries who are party to the Nuclear Non-Proliferation Treaty, and 
that, in turn, would have an effect on North Korea.

  <bullet> Would reductions to the U.S. arsenal prompt Japan and South 
        Korea to develop nuclear weapons programs of their own?
  <bullet> If Japan and South Korea did develop their own programs, how 
        would that 
        affect North Korea's proliferation activities?
  <bullet> What would the effect be on proliferation in general if, 
        while the United States reduced its stockpile, Japan and South 
        Korea began to develop their own?

    Answer. The Republic of Korea (ROK) and Japan are both committed 
partners and global leaders on strengthening and maintaining the 
integrity of the global nonproliferation regime. Both countries also 
stress their support for efforts by the nuclear weapon-state parties to 
the Treaty on the Non-Proliferation of Nuclear Weapons (NPT) to fulfill 
their treaty commitments on nuclear disarmament.
    The 2010 Nuclear Posture Review (NPR) makes clear that the United 
States will maintain a safe, secure, and effective nuclear arsenal as 
long as nuclear weapons exist. The NPR effectively balances the need to 
demonstrate progress toward meeting our commitments under the NPT and 
maintaining our security commitments and a credible extended nuclear 
deterrence to our allies and partners, including the ROK and Japan.
    The U.S. nuclear umbrella, along with our robust conventional 
weapons capabilities, will remain sufficiently strong to assure the ROK 
and Japan of our defense commitment, including to a strong response to 
any threat from North Korea, even if the United States reduced its 
stockpile. The United States is strongly committed to the defense of 
our allies, the ROK and Japan, and we have seen no evidence that either 
Japan or the ROK intends to develop its own nuclear weapons program in 
response to a possible reduction to the U.S. nuclear arsenal.
                                 ______
                                 

    Responses of Special Representative Glyn T. Davies to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. North Korea on March 11 cut off the Red Cross 
communications hotline between Seoul and Pyongyang which was used for 
general communication and to discuss aid shipments and separated 
families' reunions. This has largely been seen as a symbolic gesture.

  <bullet> When was the last time it was cut off? How did that impact 
        our interactions with North Korea and our ability to respond to 
        confrontation?
  <bullet> What impact do we expect this latest cut-off to have, if 
        any?
  <bullet> Do we expect that Pyongyang will also follow up on threats 
        to cut off a separate hotline with U.N. forces in South Korea, 
        at the border ``truce village'' of Panmunjom? What would the 
        outcome of that be? Has that ever been cut off before?

    Answer. North Korea's reported cutoff of North-South Red Cross 
communication links at Panmunjom on March 11, 2013, is not conducive to 
ensuring peace and stability on the Korean Peninsula. The last time the 
DPRK Red Cross stopped answering the Red Cross hotline was on May 26, 
2010, after the Republic of Korea (ROK) announced countermeasures in 
response to the sinking of an ROK Navy ship. Communications resumed on 
January 12, 2011.
    North Korea has periodically refused to acknowledge the 
communications channel at Panmunjom, and its recent bellicose rhetoric 
and threats follow a pattern designed to raise tensions and intimidate 
others. North Korean forces at Panmunjom at times do not answer their 
phone line connecting to the United Nations (U.N.) Command. In the 
past, the impact of their refusal to answer the phone has been minimal 
and we do not anticipate any negative effect from this latest cutoff. 
The United States continues to have direct channels of communication 
with the DPRK unrelated to the hotline in Panmunjom and we will 
continue to draw upon the full range of our capabilities to protect 
against, and to respond to, the threat posed to us and to our allies by 
North Korea.

    Question. What type of support is the United States Government 
currently providing for American nongovernmental organizations (NGOs) 
working in North Korea, if any?

  <bullet> Which American NGOs are working in North Korea?
  <bullet> How can we best get aid to them?
  <bullet> How can we account for and track the aid?

    Answer. The United States remains deeply concerned about the well-
being of the people of North Korea and supports nongovernmental 
organization (NGO) activities by offering technical and other 
assistance. There are a handful of U.S.-based NGOs working in North 
Korea. These NGOs secure funds from a variety of sources, including, at 
times, very limited and strictly controlled funding from the U.S. 
Government.
    U.S.-based NGOs are working in critical areas to improve the lives 
of North Koreans. U.S.-based NGO activity in North Korea includes 
providing medicine, medical equipment, and medical training; 
nutritional assistance to children in orphanages to help alleviate 
chronic undernutrition; agricultural assistance to improve farming 
methods in order to address critical food security issues; water and 
sanitation programs to fight waterborne disease; recovery assistance 
following flooding and other natural disasters; and other assistance 
targeted at North Korea's most vulnerable populations. The United 
States has not funded any nutrition assistance programs to the DPRK 
since March 2009. The Department of State has established rigorous 
controls and reporting requirements to ensure that any U.S.-funded 
support reaches its intended beneficiaries, and U.S. NGOs strictly 
follow these monitoring requirements. Other NGOs equip North Koreans 
with tools to improve the country's social, economic, and other 
frameworks, and facilitating cultural and other forms of exchanges. We 
monitor these NGO activities to be certain that they do not enhance 
North Korean capabilities that are under U.S. and U.N. sanctions.
    Given the sensitivity of this work and concern for the security and 
safety for U.S. NGOs operating in North Korea, we cannot provide a 
comprehensive list of U.S. NGOs operating in North Korea in this 
setting, but would be pleased to provide more details on specific U.S. 
NGOs working in North Korea and specific monitoring requirements in a 
confidential briefing.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
